<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY'S R&D BUDGET PRIORITIES FOR FISCAL YEAR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 THE DEPARTMENT OF HOMELAND SECURITY'S
                       R&D BUDGET PRIORITIES FOR
                            FISCAL YEAR 2009

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2008

                               __________

                           Serial No. 110-81

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
40-942 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
MIKE ROSS, Arizona                   PAUL C. BROUN, Georgia
LAURA RICHARDSON, California           
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
          COLIN MCCORMICK Democratic Professional Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                             March 6, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    12

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    13
    Written Statement............................................    14

Prepared Statement by Representative Laura Richardson, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    15

                               Witnesses:

Hon. Jay M. Cohen, Under Secretary, Science and Technology 
  Directorate, Department of Homeland Security
    Oral Statement...............................................    16
    Written Statement............................................    17
    Biography....................................................    30

Mr. Vayl S. Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security
    Oral Statement...............................................    30
    Written Statement............................................    32
    Biography....................................................    36

Mr. George Ryan, Director, Testing & Evaluation and Standards 
  Division, Science and Technology Directorate, Department of 
  Homeland Security
    Oral Statement...............................................    36
    Written Statement............................................    17

Discussion.......................................................    37

             Appendix 1: Answers to Post-Hearing Questions

Hon. Jay M. Cohen, Under Secretary, Science and Technology 
  Directorate, Department of Homeland Security...................    54

Mr. Vayl S. Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security................................    66

Mr. George Ryan, Director, Testing & Evaluation and Standards 
  Division, Science and Technology Directorate, Department of 
  Homeland Security..............................................    70

             Appendix 2: Additional Material for the Record

Letter to Ralph J. Ciccerone from Jay M. Cohen, dated September 
  20, 2007.......................................................    74


THE DEPARTMENT OF HOMELAND SECURITY'S R&D BUDGET PRIORITIES FOR FISCAL 
                               YEAR 2009

                              ----------                              


                        THURSDAY, MARCH 6, 2008

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:14 a.m., in 
Room 2318, Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 The Department of Homeland Security's

                       R&D Budget Priorities for

                            Fiscal Year 2009

                        thursday, march 6, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 6, 2008 the Subcommittee on Technology and 
Innovation of the Committee on Science and Technology will hold a 
hearing to consider the President's fiscal year 2009 (FY09) budget 
request for research, development, testing, and evaluation (RDT&E) at 
the Department of Homeland Security. Agency officials will discuss 
budget priorities within the Science and Technology Directorate (S&T) 
and the Domestic Nuclear Detection Office (DNDO), and discuss how the 
agency's RDT&E efforts are developing technologies to promote the DHS 
mission.

2. Witnesses

The Honorable Jay M. Cohen (Rear Admiral, USN ret.) is the Under 
Secretary of Science and Technology at the Department of Homeland 
Security (DHS).

Mr. Vayl Oxford is the Director of the Domestic Nuclear Detection 
Office (DNDO) at DHS.

Mr. George Ryan is the Director for the Testing, Evaluation, and 
Standards Division of the DHS Science and Technology Directorate (DHS 
S&T).

3. Brief Overview

        <bullet>  The FY 2009 budget request for the Department of 
        Homeland Security's Science and Technology Directorate (DHS 
        S&T) is $868.8M. This is a $38.5M increase over the FY 2008 
        enacted funding. The Explosives Division and Laboratory 
        Facilities accounts receive the largest increases, while the 
        Chemical and Biological, Infrastructure and Geophysical, and 
        Testing and Evaluation accounts are reduced.

        <bullet>  The FY 2009 budget request for the Domestic Nuclear 
        Detection Office (DNDO) is $563.8M. This is a $79.4M increase 
        over the FY 2008 enacted funding. The bulk of the increase is 
        for acquisition of the Advanced Spectroscopic Portal radiation 
        monitors, a controversial technology that Congress has blocked 
        DHS from acquiring for the last two fiscal years because of 
        problematic test results.

        <bullet>  The S&T Directorate was reorganized into discipline-
        oriented divisions in mid-2006, but there is still a question 
        of whether DHS' R&D portfolio is properly balanced. The bulk of 
        R&D funding supports biological and nuclear detection research 
        even though the Department has not yet responded to 
        Congressional requests for a formal risk assessment justifying 
        this ranking of priorities.

        <bullet>  Components of DHS S&T and DNDO carry out testing and 
        evaluation of technologies prior to deployment by the 
        Department of Homeland Security. The Under Secretary for 
        Science and Technology is also responsible for overall 
        coordination of DHS' testing and evaluation activities. The 
        results of these technology evaluations are used by DHS 
        components, first responders and law enforcement, and other 
        homeland security technology stakeholders. Questions have been 
        raised about the validity of test design and expressed concern 
        about the availability of results.

4. Background

    Research and development at the Department of Homeland Security is 
concentrated in the Science and Technology Directorate (DHS S&T) and 
Domestic Nuclear Detection Office (DNDO). DHS S&T has responsibility 
for carrying out or coordinating nearly all federal homeland security 
related research. DNDO was separated from DHS S&T in 2005 to coordinate 
all research, development, and operations of technology for detecting 
and reporting unauthorized transportation of nuclear and radiological 
materials.
DHS S&T Organization
    DHS S&T was reorganized into six divisions by Under Secretary Jay 
Cohen in mid-2006. The Under Secretary appointed three research 
directors to oversee and coordinate long-term basic research, shorter-
term applied research, and high-risk technology development across six 
divisions. The discipline-oriented divisions are intended to reflect 
specific threats to public safety and critical infrastructure. They 
include:

         Chemical and Biological: detection and mitigation of chemical 
        and biological weapons threats

         Explosives: detection of and response to conventional (non-
        nuclear) explosives

         Human Factors: social science research to improve detection, 
        analysis, and understanding of threats posed by individuals as 
        well as how communities respond to disasters

         Infrastructure and Geophysical: identifies and mitigates 
        threats to critical infrastructure

         Border and Maritime: develops technologies for surveillance 
        and monitoring of land and maritime borders

         Command, Control, and Inter-operability: research and 
        development support for inter-operable communications and cyber 
        security R&D

    In addition to the six independent divisions, the three research 
directors coordinate the DHS S&T's R&D activities with extramural 
researchers and technology customers (mainly other components of DHS, 
such as the Transportation Security Administration (TSA) or Customs and 
Border Protection (CBP)) and facilitate technology transfer to DHS 
components, other federal agencies, or State and local government 
entities. As part of the extramural research portfolio, the DHS S&T 
funds the University Centers of Excellence program, which supports 
research across a broad variety of homeland security-related topics at 
university-based centers across the country.

DNDO Organization
    DNDO was created to coordinate federal efforts to detect and 
respond to unauthorized transportation of nuclear or radiological 
materials into and within the United States. DNDO, which reports 
directly to the Secretary of Homeland Security, was split from DHS S&T 
in 2005. DNDO is responsible for coordination of federal agency efforts 
at DHS, the Department of Defense (DOD), the Department of Energy 
(DOE), the Federal Bureau of Investigations (FBI), the Nuclear 
Regulatory Commission (NRC), and the State Department to prevent the 
transport of nuclear and radiological materials across U.S. borders. It 
also works with international partners on detection and interdiction 
activities. DNDO is responsible for research, development, testing and 
evaluation of detection technologies; acquisition of detection 
technologies; threat assessments; and technical support and training 
for State, local, and Federal Government partners and first responders.

5. Issues and Concerns

How do DHS R&D priorities reflect the needs of customers, including 
other Directorates within DHS, interagency partners, and State and 
local governments? Under Secretary Cohen has said that the research 
priorities of the S&T Directorate should directly serve ``customers''--
defined as users of DHS' research results and developed technologies. 
To that effect, the Under Secretary established ``integrated process 
teams'' (IPTs) comprised of officials from other DHS components who 
advise the S&T Directorate on their technology needs, thus informing 
specific research priorities. While these interdisciplinary teams are a 
step in the right direction, the Department needs a much stronger focus 
on integrating the opinions of interagency and outside partners. At 
least 10 agencies, including the National Institute of Standards and 
Technology (NIST), the National Science Foundation (NSF), the 
Department of Transportation (DOT) and others perform homeland 
security-related R&D. However, there is no formal mechanism for 
leveraging the R&D work of other agencies within DHS. Both the S&T 
Directorate and DNDO have been criticized for ignoring the work and 
advice of other federal agencies.

How is DHS using the results of tests and evaluations to effectively 
develop and deploy technology? How are they sharing these results with 
end-users? The testing and evaluation division of DHS S&T is 
responsible for working with all components of DHS to ensure that 
technology and equipment used by DHS, law enforcement, and first 
responders meets users' needs. This division and DNDO also partner with 
other federal agencies, most notably the National Institute of 
Standards and Technology (NIST) to conduct tests and guide the 
development of standards. While DHS has been praised by homeland 
security industry representatives for their support of voluntary 
consensus standards, the Department's testing and evaluation protocols 
and reporting have been criticized by the Government Accountability 
Office (GAO), Congress and the user community.
    State and local officials, including first responders, have 
complained that DHS is not responsive to their requests and 
recommendations related to technology development and test results. DHS 
S&T must ensure that tests reflect user requirements and needs and that 
test results are available to full user community, especially those 
outside of DHS. The reduction in funding for this account is troubling, 
especially given the increased funding available for short-term 
technologies that would require testing and evaluation prior to 
deployment.

Is the balance between research divisions appropriate? Is there 
adequate investment in long-term basic research? Though DHS S&T has 
slightly rebalanced funding for its research divisions based on 
customer requirements, the Department's investment is still strongly 
weighted towards biological, chemical, and nuclear threat mitigation. 
The Department's mission is to reduce the vulnerability of the United 
States to--and mitigate the effects of--threats, both manmade and 
natural, but the overall justification of the DHS R&D portfolio makes 
no indication that there was any threat analysis used to inform how 
research areas were prioritized.
    Additionally, though longer-term R&D funding is increased for both 
DHS S&T and DNDO, the Department's R&D portfolio remains strongly 
weighted towards end-stage technology development. An inadequate 
investment in longer-term research makes the Department significantly 
less agile and responsive, locking it into a single technological 
response to emerging and future threats. Additionally, reduced funding 
for programs that support university research significantly hinders the 
Department's ability to train and recruit the next generation of 
scientists and engineers with skills relevant to the homeland security 
mission.

6. FY 2009 Budget Request

DHS S&T
    After a large decrease in appropriated funding because of the 
transfer of various programs from the Department of Homeland Security's 
Science and Technology Directorate (DHS S&T) in FY 2007 and 2008, the 
budget for DHS S&T is once again climbing. The increase in the 
President's request is indicative of the high priority the 
Administration places on short-term technology development in support 
of counter-terrorism efforts. The overall budget for research and 
development within DHS S&T increases by $38.502M above the final FY 
2008 appropriations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The balance between research divisions remains problematic. There 
is an extremely strong emphasis on biological research and counter-
measures, which account for 23 percent of the total R&D budget. Other 
critical homeland security fields, including explosives research and 
infrastructure protection are increasing but are still under-
represented. However, DHS S&T proposes to shift some funding from the 
chemical and biological division to other divisions because of new 
priorities identified by DHS components.
    In FY 2008, DHS S&T developed new methods for setting research 
priorities that included greater involvement by ``customer'' 
components; the operational components of DHS such as CBP, Immigration 
and Customs Enforcement (ICE), the Federal Emergency Management Agency 
(FEMA) and others. Representatives of these customers were brought 
together in Integrated Process Teams (IPTs) which set research and 
spending priorities down to the individual project level. In addition 
to the IPTs, DHS S&T also reconstituted the Homeland Security Science 
and Technology Advisory Committee (HSSTAC) and tasked that group with 
identifying project priorities to meet the challenge of detecting and 
preventing attacks with improvised explosive devices (IEDs). HSSTAC had 
formerly been responsible for advising DHS S&T on research priorities. 
Because these advisory groups are now focused on meeting specific 
technological needs, they naturally emphasize shorter-term research 
priorities.
    Funding priority among the various research disciplines is 
determined by the Under Secretary in consultation with the Deputy 
Secretary of DHS. Management of research within DHS S&T is divided into 
three overarching areas: basic research (long-term), innovation (mid-
term), and transition (short-term and technology development). The 
directors of research, innovation, and transition help manage and 
coordinate research within each division that falls into their 
respective category. The FY 2009 budget request summary states that DHS 
S&T now invests 20 percent of its research money in basic research 
(defined by DHS S&T as eight years or longer until technology 
development), yet the project descriptions show a strong bias towards 
short-term technology development.
    An analysis of selected components is below:

Innovation
    In addition to coordinating various priorities within the divisions 
of DHS S&T, the Director of the Innovation portfolio manages additional 
technology development projects. Specifically, the Director of 
Innovation oversees the Homeland Security Advanced Research Project 
Agency (HSARPA) and coordinates funding for the short-term High Impact 
Prototypical Solutions (HIPS) and High Impact Technology Solutions 
(HITS) projects. In the FY 2009 request, the funding for the Innovation 
portfolio is increased to fund additional projects identified as high 
priority in the Integrated Product Team (IPT) process. The projects 
include technologies for rapid liquid explosive detection, secure 
container testing, IED defeat, and levee strengthening. However, as in 
the FY 2008 budget the funding increase will support mainly advanced 
technology development and demonstrations and does not provide funding 
for the basic and applied research priorities included in HSARPA's 
mandate.

Transition
    The Director of Transition manages technology transfer and near-
term product development for DHS S&T. Funding for several important 
programs that guide research priorities and technology transfer is flat 
in the FY 2009 request for the Transition portfolio. The Homeland 
Security Institute, a Federally-Funded Research and Development Center 
(FFRDC) charged with providing analysis and advice to DHS, is held flat 
at $5M in FY 2009. Additionally, the TechSolutions and 
TechClearinghouse programs, which are web based platforms for 
soliciting information on capability gaps and for sharing technology 
information with first responders, are held flat.

Test and Evaluation, Standards
    The Test and Evaluation and Standards portfolio within DHS S&T is 
decreased by $3.8M to $24.67M in the budget proposal. In spite of the 
decrease, there are several new programs in the proposal that will fall 
into the Test and Evaluation and Standards portfolio. First, DHS S&T 
proposes adding a testing and evaluation oversight process to the 
Integrated Product Team process. Testing and evaluation activities at 
DHS (within DHS S&T and DNDO) have come under significant criticism 
because of opaque processes, potentially falsified results, and lack of 
robust testing protocols. Giving oversight authority to IPT 
participants is a good first step towards improving the process, 
especially since they represent many of the end technology users. The 
proposal also includes developing a modeling and simulation strategic 
plan to support testing and evaluation, and the establishment of an 
advisory council.

Border and Maritime Security
    The border and maritime security division's proposed FY 2009 budget 
has a strong emphasis on technology testing and evaluation. This 
division carries out research in support of all border security 
components of DHS, including TSA, CBP, Immigration and Customs 
Enforcement (ICE), and the U.S. Coast Guard (USCG). The overall 
divisional budget is held flat in FY 2009, but there are internal 
adjustments to increase support of testing and evaluation in support of 
the Secure Border Initiative (SBI), border officer protection 
technology, and maritime security.

Chemical and Biological (Chem/Bio)
    Chemical and biological research are the largest priorities for DHS 
S&T. Specifically, research into biological threats and counter-
measures receives the largest funding of any single priority. Within 
Chem/Bio, DHS S&T has placed a strong emphasis on technology testing. 
Research funding is focused on completing development of cheaper, next 
generation biohazard detection devices (BioWatch 3).

Command, Control, and Inter-operability
    The request includes a $5.4M increase for the Command, Control, and 
Inter-operability Division (CID), bringing it to $62.4M. The increase 
is strongly focused on testing of information infrastructure security. 
Testing activities and support will take place in part in collaboration 
with the National Science Foundation (NSF), and DHS will also fund a 
war gaming project for cyber security training. Conversely, R&D funding 
in the field of cyber security, which includes technology 
demonstrations and testbed development, is reduced in the request.

Explosives
    On the recommendations of DHS components participating in the IPT 
process, DHS S&T increased the request for funding in the explosives 
division by $18.5M to $96.1M. The additional funding will go towards 
new investments in detecting and neutralizing vehicle borne IEDs and 
suicide bombers. As part of the IED program, DHS S&T is also finally 
requesting funding to examine new options for detecting liquid 
explosives.

Human Factors
    The Human Factors division (HF) was created in FY 2008 to bring a 
social science perspective to DHS S&T. This division's mission is 
unclear in the FY 2009 budget request. Funding is split between using 
psychological research as part of the technology development process, 
where scientists would look at how people interact with technology to 
make devices easier to use or more socially acceptable. The other 
portion of the funding is dedicated to research that attempts to apply 
behavioral science theories to the DHS mission, using facial 
expressions to identify potential terrorists. Behavioral scientists 
have raised serious concerns about the validity of the research on 
which these projects are based.

University Programs
    DHS University Programs are an important resource for DHS. The 
Centers of Excellence (COE) program is a source of much of the valuable 
basic research in security related science. Additionally, both the COE 
and Scholars and Fellows program support the development and expansion 
of the homeland security workforce by attracting and training students 
in critical fields. However, the FY 2009 budget proposal once again 
guts this program by dividing less money among more centers. The 
funding for University Programs is decreased from $49.3M to $43.8M. The 
total amount for COEs is held flat, but additional grants for new COEs 
will be awarded in FY 2008 and FY 2009, making the amount of funding 
available to individual centers significantly lower.

DNDO
    The FY 2009 budget request for the Domestic Nuclear Detection 
Office (DNDO) is increased by $79.41M above the FY 2008 enacted 
appropriations to $563.8M. This amount, especially when compared to DHS 
S&T's overall proposed funding of $868.8M, demonstrates the 
Administration's focus on nuclear terrorism. The Administration uses a 
threat calculus to determine R&D priorities that emphasizes preventing 
the highest impact events, regardless of how probable those events may 
be. Nuclear threats thus top the list, as DNDO accounts for nearly 40 
percent of the Department's R&D portfolio. The Department has not 
released any justification of this balance of priorities.
    Each of the individual portfolios within DNDO receives increased 
funding in the budget proposal, though there is some readjustment among 
the various programs. The largest increase is for systems acquisition, 
with an increased proposed budget for the controversial Advanced 
Spectroscopic Portal radiation detector.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    An analysis by components is below:

Management and Administration
    The increase for Management and Administration will go towards 
reimbursing other federal agencies providing detailees to DNDO as well 
as towards creating additional full time positions to reach a total of 
144 staff. As DNDO continues to build up as an independent office, a 
full time permanent staff will create continuity and expand the 
office's expertise and capabilities. DNDO still depends on a 
significant number of detailees, which represent approximately one-
third of the total full time staff.

Research, Development, and Operations
    The budget request for FY 2009 is $334.2M, a $10M increase over the 
enacted FY 2008 appropriations. The largest increase goes towards 
transformational R&D, which has a strong focus on technology 
development, especially short-term projects to develop radiation 
detectors. There is also additional funding for systems engineering and 
development for projects that emphasize non-containerized security, a 
new thrust area for DNDO. These new projects will focus especially on 
detecting nuclear threats posed by general aviation aircraft (i.e., 
private planes) and boats. DNDO has also acknowledged end-user needs to 
a greater extent than in previous years. They emphasize their 
collaboration with other components of DHS, including TSA, USCG, and 
CBP.
    The proposed reduction in the budget for technology assessments is 
worrisome. DNDO has been carrying out tests of new detection technology 
and has been criticized for running invalid tests. Cutting assessment 
funding at this point would stifle DNDO's ability to fund legitimate 
tests, even though DNDO requests additional money to fund production of 
the technologies that lack legitimate test data.

Systems Acquisition
    The Systems Acquisition budget request is increased $61M over the 
FY 2008 appropriations. The increase goes almost exclusively for 
funding for next generation Advanced Spectroscopic Portal (ASP) 
radiation monitors with cuts to other acquisition programs totaling 
$10M. ASPs have been an Administration priority since the creation of 
DNDO. The FY 2008 appropriations law blocked any expenditure for ASPs 
because of irregularities in test data that indicate these monitors are 
potentially ineffective. The law now requires the Secretary to certify 
the performance of ASPs before any funding can be allocated to their 
acquisition. This request suggests that the Secretary is confident in 
being able to certify performance in FY 2009, but it is unclear whether 
ASPs will be able to reach the performance levels necessary to justify 
this $67M expenditure.
    The request cuts $10M from the budget for the Securing the Cities 
program. This is a program to deploy nuclear detection equipment at 
entryways into a city, including ports, highways, and airports. The 
potential effectiveness of this program is questionable. The concept of 
operations calls for deployment of hand-held, vehicle based, and 
stationary radiation sensors that would be stationed at various points 
around New York City. However, there has been little clarity on how 
currently available technologies would effectively locate radiological 
material with the precision necessary to isolate any dangerous 
materials, and there are also privacy and cost concerns inherent to 
this type of plan that involves such a wide array of sensors.
    Chairman Wu. I call the Subcommittee to order, and want to 
welcome everyone to this morning's hearing on the fiscal year 
2009 research and development budget for the Department of 
Homeland Security. This is our second hearing on the DHS R&D 
budget in the 110th Congress, and I hope that we will be able 
to devote at least some of our time today to learning more 
about the Department's accomplishments in the past year. So I 
am glad to see that the Administration is demonstrating a 
better understanding of the need for research and development 
in support of homeland security goals by increasing its 
requests for both the Science and Technology Directorate and 
Domestic Nuclear Detection Office.
    I am somewhat disappointed that many of the issues that 
arose during last year's budget hearing remain unresolved or 
only partially on their way to resolution. In spite of requests 
from this committee and others, this year's budget request was 
developed without the guidance of a comprehensive risk analysis 
that justifies the balance between R&D areas, such as 
biological counter-measures, nuclear detection, cyber security, 
conventional explosive mitigation, and others. DHS S&T did 
release a strategic plan last year, for which we commend it, 
and we appreciate that effort, but that plan did little to 
answer the questions about planning and priorities. I am 
disappointed that we do not have better answers about how DHS 
makes important decisions about where to invest limited 
resources for R&D.
    Though Under Secretary Cohen and Director Oxford have done 
an admirable job at integrating the needs of the mission 
components of DHS into their research and technology 
development planning, this subcommittee continues to hear 
complaints that outreach does not trickle down to end-users 
outside of DHS. State and local officials, especially first 
responders, a crucial part of our domestic security enterprise, 
continue to feel that they are shut out of the process of 
identifying gaps in capabilities, and setting research 
priorities.
    Today, I would like to hear about an action plan for how 
the S&T Directorate and DNDO will ensure that stakeholders 
outside of DHS are fully integrated into the research planning 
process, and that their costs and operational needs are met 
before any technologies are considered ready for deployment.
    An additional related issue that I want to discuss during 
this hearing is how the S&T Directory and DNDO conduct testing 
and evaluation of technologies, and how the results of those 
tests are used to guide decisions about procurement. According 
to the Department's budget requests, nearly half the funding in 
the S&T Directorate will go toward product transition, and one 
third of the DNDO funding will go towards systems acquisition. 
Such a strong emphasis on end-stage technology development and 
acquisition means that high quality, trustworthy testing is 
imperative to the Department's mission.
    Concerns have been raised about DHS testing and evaluation 
efforts, some of which have come under close scrutiny by this 
committee and others, but at the end of the day, if end-users 
cannot trust that technology works, they will not take 
advantage of the many benefits we all know technology brings to 
the day to day activities of the Homeland Security workforce.
    Lest you think that this hearing will be comprised entirely 
of complaining, let me conclude by commending all of you on 
some successes. We discussed last year the value of basic 
research to the Homeland Security mission. I see that this 
year's budget request, the basic research investment for the 
S&T Directorate will reach Under Secretary Cohen's goal of 20 
percent. Additionally, DNDO plans to increase their investment 
in transformational R&D. A strong investment in basic research 
keeps DHS S&T flexible and capable of responding to emerging 
threats quickly. Moreover, much of this money ends up funding 
academic research that helps build a skilled science and 
engineering workforce capable of meeting homeland security-
related research needs for many years to come.
    Of course, the S&T Committee always likes to see more long-
term research, but this is a good, appropriate first step. I 
want to reiterate that I am committed to working with the 
Department of Homeland Security to ensure that R&D investments 
are successful in increasing our knowledge of how to confront 
catastrophes, whether from human or natural causes.
    I look forward to hearing from our witnesses, but there are 
developments that occur in real-time to which we need to 
respond, and one of those developments is the news story and 
response in the Washington Post this morning, a news article on 
the front page delineating some of the problems that have 
developed with DHS technology. It was originally focused on the 
border fence, but it addresses many other issues that DHS works 
on, including airport security and some of these other 
technologies that we have been talking about.
    Unfortunately, there was a response in the back pages of 
the Washington Post. Mr. Ignatius quoted extensively from 
Secretary Chertoff, and apparently, it is the Secretary's 
approach to point to sources external to the Department as the 
cause of many of the Department's problems.
    I would like to remind everyone in the room that we had a 
set of nudge-like hearings a year ago, kindly nudge-like 
hearings, which were an attempt to be helpful to the research 
efforts at DNDO and at the S&T Directorate. These were not 
classic Washington, D.C. ``got you'' type hearings, and they 
were not intended as such, and they were not executed as such. 
But we expressed serious concerns about whether user groups 
were being properly consulted, whether gaps in technology were 
being properly addressed, whether there was a proper allocation 
between basic research and applied research, whether there was 
too much of a tendency to fight the fire of the day rather than 
to have a comprehensive approach to addressing risks, and 
whether, indeed, risk assessment was being properly used to 
deploy limited research results.
    There has not been enough progress made in the twelve 
months between last year's hearing and today. Twelve months 
from now, there will be a change in administration, and no 
matter who is in charge at the top, the crucial mission of the 
DHS will remain. I, for one, am somewhat frustrated at the pace 
of progress, and would like to consider what mechanisms are 
necessary to ensure that in the coming months, in the last 
months of this Administration, that we continue to press 
forward with sufficient aggressiveness to address the issues 
which were identified a year ago, and which we will focus on 
today.
    And with that, I would like to recognize my colleague and 
the Ranking Member from Georgia, Dr. Gingrey, for his opening 
remarks.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    I would like to call the Subcommittee to order.
    I want to welcome everyone to this morning's hearing on the FY09 
research and development budget for the Department of Homeland 
Security. This our second hearing on the DHS R&D budget in the 110th 
Congress, and I hope that we are able to devote at least some of our 
time today to learning more about the Department's accomplishments in 
the past year.
    Though I am glad to see that Administration is demonstrating a 
better understanding of the need for research and development in 
support of homeland security goals by increasing its requests for both 
the Science and Technology Directorate and Domestic Nuclear Detection 
Office, I am disappointed that many of the issues that arose during 
last year's budget hearing remain unresolved. In spite of requests from 
this committee and others, this year's budget request was developed 
without the guidance of a comprehensive risk analysis that justifies 
the balance between R&D areas such as biological counter-measures, 
nuclear detection, cyber security, conventional explosive mitigation, 
and others.
    DHS S&T did release a strategic plan last year, and we appreciate 
that effort, but that plan did little to answer questions about 
planning and priorities.
    I am disappointed that we do not have better answers about how DHS 
makes important decisions about where to invest limited resources for 
R&D. Though Under Secretary Cohen and Director Oxford have done an 
admirable job at integrating the needs of the mission components of DHS 
into their research and technology development planning, this committee 
continues to hear complaints that outreach does not trickle down to 
end-users outside of DHS. State and local officials, especially first 
responders--a crucial part of our domestic security enterprise--
continue to feel that they are shut out of the process of identifying 
gaps in capabilities and setting research priorities.
    Today I would like to hear about an action plan for how the S&T 
Directorate and DNDO will ensure that stakeholders outside of DHS are 
fully integrated into the research planning process, and that their 
cost and operational needs are met before any technologies are 
considered ready for deployment.
    An additional related issue that I want to address during this 
hearing is how the S&T Directorate and DNDO conduct testing and 
evaluation of technologies, and how the results of those tests are used 
to guide decisions about procurement. According to the Department's 
budget request, nearly half the funding in the S&T Directorate will go 
towards product transition and one-third of the DNDO funding will go 
towards systems acquisition.
    Such a strong emphasis on end-stage technology development and 
acquisition means that high quality, trustworthy testing is imperative 
to the Department's mission. Concerns have been raised about DHS 
testing and evaluation efforts, some of which have come under close 
scrutiny by this committee and others. But at the end of the day, if 
end-users cannot trust that technology works, they will not take 
advantage of the many benefits we all know technology brings to the 
day-to-day activities of the homeland security workforce.
    Lest you all think that this hearing will be comprised entirely of 
complaining, let me conclude by commending all of you on some 
successes. We discussed last year the value of basic research to the 
homeland security mission.
    I see that in this year's budget request, the basic research 
investment for the S&T Directorate will reach Under Secretary Cohen's 
goal of twenty percent. Additionally, DNDO plans to increase their 
investment in transformational R&D. A strong investment in basic 
research keeps DHS S&T flexible and capable of responding to emerging 
threats quickly. Moreover, much of this money ends up funding academic 
research that helps build a skilled science and engineering workforce 
capable of meeting homeland security-related research needs for many 
years to come. Of course, the S&T Committee always likes to see more 
long-term research, but this is a very good and appropriate first step.
    I want to reiterate that I am committed to working with the 
Department of Homeland Security to ensure that R&D investments are 
successful in increasing our knowledge of how to confront catastrophes, 
whether from human or natural causes. I look forward to hearing all of 
the witnesses' thoughts on the FY09 budget request and how that budget 
supports science and technology to make our nation safer.
    I now want to recognize my colleague and the Ranking Member from 
Georgia, Dr. Gingrey, for his opening remarks.

    Mr. Gingrey. Good morning, Chairman Wu. I want to thank you 
for holding this hearing this morning to get an in-depth look 
at the fiscal year 2009 budget request for the Department of 
Homeland Security's ongoing efforts in research and 
development.
    Our nation's scientific enterprise remains, and will 
continue to be, a critical component of our homeland security. 
The efforts of the Domestic Nuclear Detection Office and the 
Science and Technology Directorate contribute to the 
preparedness of our nation against potential terrorist attacks 
and, of course, natural disasters as well.
    These organizations tap into the limitless creativity of 
our nation's scientists and engineers, leading to direct 
benefits for our first responders, our guardsmen, our Border 
Patrol agents, our police, our firefighters, just to name a 
few. These offices within DHS are vital components to our 
homeland security strategy, and I certainly want to thank the 
panel for being here this morning.
    I also want to thank all the men and women who work with 
you to bring the skill of our nation's scientists and engineers 
to bear to protect us from threats we currently face. You are 
performing a great service to this country, and you should be 
recognized for those efforts.
    Mr. Chairman, last week, the full Science and Technology 
Committee unanimously reported the Border Security Technology 
Innovation Act of 2008, which is sponsored by the distinguished 
Ranking Member of the full Committee, Mr. Ralph Hall of Texas. 
This bill acknowledges the crucial role that science and 
technology play in protecting our nation's borders. Today, I 
expect we will hear from our witnesses that our science and 
technology research and development efforts are strong, and 
they are yielding immediate benefits for our nation. However, I 
do know that we can continue to improve on these efforts.
    For the fiscal year 2009 budget, President Bush has 
requested over $1.4 billion for the research and development 
efforts at DHS. In addition to prioritizing among the various 
types of threats that we face, we must also consider the 
character of research performed. How much spending should be 
geared towards long-term basic research? How much towards 
incremental improvements to our current capabilities?
    Now, Mr. Chairman, we also have to consider how best to 
defend against an adaptive and intelligent enemy who will 
attempt to overcome or bypass any defense we create. Therefore, 
it is crucial that we seek defenses that can be implemented as 
broadly as possible, and minimize the chance that they can be 
easily sidestepped. I think that is what we are talking about 
in regard to the need to reauthorize and extend and improve the 
FISA law, the Protect America Act. Reaching this goal will 
require sustained attention to the operational needs of the 
Department of Homeland Security, and continual re-examinations 
of the many threats that we do face.
    Finally, we must ensure that our substantial investments in 
new security technology work as advertised. Both of your 
agencies have been criticized in the past for incomplete or 
inaccurate testing and evaluation procedures. A rigorous 
testing and evaluation process will help your agencies in the 
long-term by ensuring that your work meets the needs of our 
first responders. I applaud your efforts to immediately address 
these concerns, and suggest that this committee is well 
situated to help you in those efforts. The fundamental 
challenge before us is how best to distribute limited funding, 
always, in the face of highly uncertain, varied, and changing 
threats.
    In the past year, your organizations have steadily improved 
our nation's defenses. These are areas, there are areas, I 
should say, where I think more must be done in the coming year. 
I look forward to discussing these issues with you today, 
seeking ways to help you implement your effective, efficient, 
and evolving defense of our homeland.
    With that, Mr. Chairman, I want to thank the panel. I look 
forward to their testimony, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Good morning, Chairman Wu. I want to thank you for holding this 
hearing this morning to get an in-depth look at the Fiscal Year 2009 
budget request for the Department of Homeland Security's ongoing 
efforts in research and development. Our nation's scientific enterprise 
remains--and will continue to be--a critical component of our homeland 
security.
    The efforts of the Domestic Nuclear Detection Office and the 
Science and Technology Directorate contribute to the preparedness of 
our nation against potential terrorist attacks and natural disasters. 
These organizations tap into the limitless creativity of our nation's 
scientists and engineers, leading to direct benefits for our first 
responders: our guardsmen, our border patrol agents, our police, and 
our firefighters, just to name a few.
    These offices within DHS are vital components to our homeland 
security strategy and I want to thank the panel for being here this 
morning. I also want to thank all the men and women who work with you 
to bring the skills of our nation's scientists and engineers to bear to 
protect us from threats we currently face. You are performing a great 
service to this country, and you should be recognized for your efforts.
    Mr. Chairman, last week, the full Science & Technology Committee 
unanimously reported the Border Security Technology Innovation Act of 
2008, which is sponsored by the Distinguished Ranking Member of the 
Full Committee, Mr. Ralph Hall of Texas. This bill acknowledges the 
crucial role that science and technology play in protecting our 
nation's borders. Today, I expect we'll hear from our witnesses that 
our science and technology research and development efforts are strong 
and yielding immediate benefits for our nation. However, I know we can 
continue to improve on these efforts.
    For the Fiscal Year 2009 Budget, President Bush has requested over 
$1.4 billion dollars for the research and development efforts at DHS. 
In addition to prioritizing among the various types of threats that we 
face, we must also consider the character of research performed. How 
much spending should be geared towards long-term, basic research? How 
much towards incremental improvements to our current capabilities?
    Mr. Chairman, we also have to consider how best to defend against 
an adaptive and intelligent enemy who will attempt to overcome or 
bypass the defenses we create. Therefore, it is crucial that we seek 
defenses that can be implemented as broadly as possible and minimize 
the chance that they can be easily side-stepped. Reaching this goal 
will require sustained attention to the operational needs of the 
Department and continual reexamination of the threats we face.
    Finally, we must ensure that our substantial investments in new 
security technology work as advertised. Both of your agencies have been 
criticized in the past year for incomplete or inaccurate testing and 
evaluation procedures. A rigorous testing and evaluation process will 
help your agencies in the long-term by ensuring that your work meets 
the needs of our first responders. I applaud your efforts to 
immediately address these concerns and suggest that this committee is 
well-situated to help you in your efforts.
    The fundamental challenge before us is how best to distribute 
limited funding in the face of highly uncertain, varied, and changing 
threats. In the past year, your organizations have steadily improved 
our nation's defenses. There are areas, however, where I think more 
must be done in the coming year. I look forward to discussing these 
issues today and seeking ways to help you implement an effective, 
efficient, and evolving defense of our homeland.
    With that Mr. Chairman, I yield back the balance of my time.

    Chairman Wu. I thank the gentleman, and if there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record.
    [The prepared statement of Ms. Richardson follows:]

         Prepared Statement of Representative Laura Richardson

    Thank you Chairman Wu for holding this very important hearing 
today. I would also like to thank our witnesses for their testimony. 
The purpose of today's hearing is to examine the Administration's FY 
'09 budget request for the research, development, testing, and 
evaluation performed at the Department of Homeland Security (DHS). The 
Science and Technology Directorate at DHS and the Domestic Nuclear 
Detection Office (DNDO) are this nation's leading federal agencies 
tasked with the responsibility of developing the next wave of 
technology that will protect the American people. Fortunately the work 
that this committee performs allows us to approach the issue of 
national security in a relatively bipartisan manner. Equipping our 
border agents, service men and women, and other agencies/customers of 
DHS with proven technology is a necessity, and a step in the right 
direction towards securing our borders, and fighting the war on terror.
    Looking at the proposed budget it is obvious the Administration's 
priorities are, chemical and biological research. While the threat of a 
large scale biological or chemical attack is always possible; I, like 
many of my colleagues are interested to hear whether or not the 
Department has done a threat assessment to justify this commitment. 
Likewise this Administration is also committed to the work that is 
performed at the Domestic Nuclear Detection Office; again a threat 
assessment to justify this level of spending is not only reasonable, 
but fiscally responsible.
    Another issue that this committee has is the concerns that DHS is 
not responsive to the concerns of its varying agencies as they pertain 
to test results and user requirements. I must say that it is short 
sighted not to heed the concerns of the individuals who need to use 
this technology in the field every day. Therefore, what we need to know 
is what the Department is doing to address this issue.
    Also, as a Member whose district is adjacent to the port of Long 
Beach and close to the port of Los Angeles, I am particularly 
interested in the R&D work that is being performed in the Border & 
Maritime Security division. As I mentioned at last week's markup of the 
USFA reauthorization, an incident at one of these ports that results in 
an eventual shutdown can cost the national economy billions of dollars. 
Therefore I am interested to know what technology has already been 
implemented, and what technology has the promise of full implementation 
in the near future.
    In closing I want to reiterate my strong support for the work that 
all of our witnesses do at their respective agencies. The general 
public may not be aware what you do, but the Members of this committee 
appreciate all of your work. Likewise the Members of this committee 
just want to ensure that the work you do in the field can continue at 
the highest levels.
    I look forward to hearing from our witnesses, and I yield back my 
time.

    Chairman Wu. I would now like to introduce our 
distinguished panel of witnesses. Rear Admiral Jay Cohen is the 
Under Secretary for Science and Technology at the Department of 
Homeland Security. Mr. Vayl Oxford is the Director of the 
Domestic Nuclear Detection Office, or DNDO, at DHS. And 
finally, Mr. George Ryan is the Director of Testing, 
Evaluation, and Standards for the DHS S&T Directorate.
    I will now turn things over to our witnesses, and as our 
witnesses know, your longer written statement will be submitted 
into the record, and your oral testimony is limited to five 
minutes each, after which the Committee will have five minutes 
each to ask questions.
    And we will start with Under Secretary Cohen. Please 
proceed.

 STATEMENT OF HON. JAY M. COHEN, UNDER SECRETARY, SCIENCE AND 
    TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Well, good morning, Chairman Wu and Congressman 
Gingrey, and the other distinguished Members of the Committee. 
It is a great personal honor for me to appear before you today, 
along with Vayl Oxford and George Ryan. It is a great privilege 
for me to be entrusted with the taxpayers' resources to oversee 
the Science and Technology component of the Department of 
Homeland Security, and also, to lead a fantastic group of men 
and women who are absolutely dedicated to using science and 
technology to make our nation safer.
    I will limit my words to just a very few thoughts, because 
I think your questions will be much more important than 
anything I might say at the start, but I appreciated your 
words, Chairman, and your words, Congressman Gingrey, on the 
progress that we have made, and the progress that we have to 
make, as we go forward. Your Committee and the other 
committees, including the other body, have been very supportive 
throughout the year and a half I have been on-board. We rapidly 
reorganized into a more enduring S&T construct, of enduring 
disciplines, where projects come and go, and a balanced 
portfolio of basic research, as you indicated, near-term 
product transition, and then, a higher risk innovation 
portfolio, which only S&T has the ability to facilitate.
    And so, I shared with you the threats as I saw them a year 
and a half ago. This is my third time testifying before this 
committee in this position, and those are the four Bs, bombs, 
borders, bugs, and business. Everyone understands bombs, 
borders, and bugs. The business is the cyber-backbone that 
enables everything that we do in our society, and I know there 
is great interest in that.
    And then, I told you from my organization, I had the four 
gets, and we had to get those right. We had to get the 
organization right, and you were very helpful with that. We had 
to get the people right. When I came on-board, as you may 
remember, the Office of Personnel Management had evaluated my 
organization the spring before I got there, and we were ranked 
222 out of 222 government organizations, so if at the end of my 
tenure, I achieve 221, I believe I will be a hero, because at 
least, we won't be last, but I think we are doing a lot better 
than that, because we had 60 percent federal employees when I 
came on-board, and today, we have over 93 percent federal 
employees. I have no shortage of volunteers, and about ten 
federal employees who had left my Directorate in the spring of 
'06 have come back on-board to be full members and program 
managers. So, it is an exciting time.
    We had to get the books right, and this was written about 
in the legislation, and I am joined today by Dick Williams, my 
Chief Financial Officer. We came on-board the same day, 10 
August 2006. You may remember that was the day of the liquid 
explosives plot in London, and welcome aboard, and it has been 
a heck of a ride ever since.
    And then, finally, if you get the people right, you get the 
organization right, and you get the books right, then you can 
get the content right. And that has been the focus of my last 
year, and I guarantee you, Chairman and Members, it is 
absolutely my focus in the transition year.
    And so, the four Bs, the four gets, we have testified to 
that before. I think it brings us to a place where I am now 
focused on the four Ps. I want to assure you that I have only 
23 initiatives left, because then I run out of letters in the 
alphabet.
    Well, what are the four Ps? The first is people, and they 
enable everything we do, especially in science and technology. 
The next is process, and we have invited your Members, and they 
have been very kind, and your staff, to come to all of our 
processes, whether it is the Integrated Product Team, or it is 
basic research reviews or field trips, or our outreach 
stakeholder conferences, and they have been very, very 
supportive, as has the IG. I believe in open processes, and it 
is the processes and the five year budget and the priorities 
that will outlive me and this Administration, as it did when I 
left the Office of Naval Research after six years.
    The third is partnerships, and I know, Chairman, how 
strongly you and the committee feel in the enabling 
legislation, about leveraging the other components of 
government, international, United States, industry, and of 
course, our heroes, my customers, the first responders, and you 
have already addressed that so well.
    And so, if we get the people right, then we get the 
processes in place, which I believe we have, and we have 
vibrant partnerships to save the taxpayers money and not 
duplicate effort, in the end, you add those all up, we get 
product. And the product is what we are trying to get out, not 
only to the 22 components and directorates, my immediate 
customers at DHS, but also, the customer of my customer, the 
first responders.
    And I know there will be many questions on that. And so, as 
always, I welcome your oversight. I welcome your questions. I 
appreciate very much the bipartisan support that Science and 
Technology has and continues to receive, and I am committed to 
you, sir, and to the American taxpayer, and to the 
Administration, to do my very best to charge to the goal, and 
turn over the best science and technology in support of making 
the Nation safer, that I can do.
    Thank you so much.
    [The prepared statement of Admiral Cohen and Mr. Ryan 
follows:]
           Prepared Statement of Jay M. Cohen and George Ryan

INTRODUCTION

    Good Morning Chairman Wu, Ranking Member Gingrey, and distinguished 
Members of the Committee. It is an honor for me to appear before you 
today to update you on the progress of the Department of Homeland 
Security's (DHS) Science and Technology Directorate (S&T Directorate) 
and discuss how the President's Budget Request for Fiscal Year 2009 
will position us to develop and transition technology to protect the 
Nation from catastrophic events.
    The S&T Directorate is committed to serving our customers--the many 
components that comprise the Department--and their customers--the 
hardworking men and women on the front lines of homeland security, 
especially the first responders, who need ready access to technology 
and information to perform their jobs more efficiently and safely. I am 
honored and privileged to serve with the talented scientists, engineers 
and other professionals who support these dedicated Americans in our 
shared mission to secure our homeland and defend our freedoms.
    First and foremost, I continue to be very appreciative of the 
leadership of the Congress in its support of the S&T Directorate, and 
of me personally, as Under Secretary for Science and Technology. I am 
grateful for the engaged and nonpartisan relationship we enjoy, which 
is vitally important for the S&T Directorate. The informed counsel of 
Committee Members with homeland security oversight, and that of their 
staffs, has been invaluable to the Department's efforts to position the 
S&T Directorate for accountability, tangible results and success, both 
for today and in the future.
    Last year, I told you that to achieve long-term success, the S&T 
Directorate must get four `gets' right--its organization, its people, 
its books, and its program content. I also told you that we would 
concentrate our activities on the four `Bs'--bombs, borders, bugs and 
business--to stay focused on priority threat areas for the S&T 
Directorate.
    I'm pleased to report that since last year, we have made 
significant progress in the four `gets' and the four `Bs.'
    Highlights of this progress include:

         Publishing a strategic plan that provides a framework to guide 
        the Directorate's activities over the next five years;

         Strengthening our workforce by increasing federal staff, 
        implementing training initiatives, and building morale through 
        directorate-wide communications and events;

         Realigning our organizational structure and research, 
        development, test and evaluation (RDT&E) activities to better 
        serve the Department's components and their end-users; and

         Establishing a customer-led, Capstone Integrated Product Team 
        (IPT) Process to identify our customers' needs and develop and 
        transition near-term capabilities for addressing them.

    This year, I am going to focus on the four `Ps': People, Process, 
Partnerships, and Product. Fine tuning and sustaining the four `Ps' 
will ensure that the S&T Directorate achieves enduring success.
    The first `P' is for People. That is because once you get the 
people right, you have to keep the people right. The S&T Directorate 
will keep the right mix of people by having a solid staffing plan and 
by being a great place to work. Our employee communications, training 
opportunities and directorate-wide activities have helped make the S&T 
Directorate a place where highly skilled professionals want to be. We 
must sustain this effort.
    The second `P' is for Process, because you need a stable and 
efficient operational foundation to keep an organization, its program 
content, and its books right. The S&T Directorate will refine and 
integrate its internal management processes--financial and 
administrative--to ensure operational excellence and fiscal 
responsibility. We must also mature those processes that drive the 
delivery of products to our customers, such as our customer-led 
Capstone Integrated Product Team (IPT) Process--and continue to support 
a balanced portfolio for RDT&E activities.
    The third `P' is for Partnerships, which are essential for long-
term success. The S&T Directorate will build on the international and 
interagency partnerships it put in place this past year by establishing 
more formal working agreements and commitments to the development of 
homeland security science and technology.
    The fourth `P' is for Product, because we exist to deliver to our 
customers' science and technology breakthroughs that will strengthen 
the security of our homeland.

PEOPLE

    The S&T Directorate functions as the Department's science and 
technology manager. We invest in science and technology that supports 
DHS component efforts to protect out homeland. To achieve this, the S&T 
Directorate develops and manages an integrated program of science from 
basic research and technology innovation through technology transition. 
The managers of this program are predominantly active scientists and 
engineers in the many disciplines relevant to Homeland Security. 
Program investment is guided by a multi-tiered strategy and review 
process based on higher guidance, customer needs, and technology 
opportunities.
    Our staffing is currently at 93 percent of Full Time Equivalents 
(FTE). Hiring has been slowed due to the continuing resolution and a 
reduction in the M&A funding, but we expect to reach our full 
complement of 381 FTEs by the end of FY 2008. This year we are putting 
in place a career Senior Executive Service Deputy Under Secretary for 
Science and Technology to help ensure a seamless transition into the 
next Administration. I'm also pleased to inform you that in the past 
several months we have received a number of unsolicited employment 
applications from very qualified individuals. The word is out that the 
S&T Directorate is making a difference.
    It continues to be very important to me personally that S&T 
Directorate staff be kept informed of our plans and priorities and that 
they have a forum for asking questions and expressing their views and 
concerns. I hold monthly ``All Hands'' meetings to brief all staff 
members, including teleconference links with staff in other locations 
such as the Transportation Security Laboratory in Atlantic City, New 
Jersey, the Animal Disease Center on Plum Island, New York, the 
Environmental Measurements Laboratory in New York City, and the 
National Biodefense Analysis Counter-measures Center in Fort Detrick, 
Maryland. These meetings also allow me to recognize the achievements of 
staff members, to answer questions and solicit input, and, most 
importantly, express my gratitude for their superb work.

PROCESS

    I thank Congress for its support of the new organizational 
structure, which we put in place in September 2006.
    This enabled us to re-engineer our management and administrative 
processes over the last two years to reduce the costs of our business 
operations by more than 50 percent. We accomplished this by 
implementing several efficiency initiatives to make better use of our 
resources including converting positions filled by contractors to be 
civil servants, consolidating office space, and limiting our overhead, 
which I will continue to cap at nine percent in FY 2009.
    It has also supported a broad and balanced range of activities that 
are aimed at identifying, enabling and transitioning new capabilities 
to our customers to better protect the Nation. This is reflected in the 
President's FY 2009 Budget request, which includes $145.1 million for 
the basic research portfolio; $361.4 million for the transition 
portfolio; and $58.6 million (including SBIR) for the innovation 
portfolio.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Basic Research (> 8 years)
    The S&T Directorate's basic research portfolio addresses long-term 
research and development needs in support of DHS mission areas that 
will provide the Nation with an enduring capability in homeland 
security. This type of focused, protracted research investment has the 
potential to lead to paradigm shifts in the Nation's homeland security 
capabilities.
    The S&T Directorate's basic research program enables fundamental 
research at our universities, government laboratories and in the 
private sector. I have previously stated a goal to grow this account to 
approximately 20 percent of the budget; and I am pleased today to be 
able to say that we have met this goal. Approximately 20 percent of the 
S&T Directorate's investment portfolio, or $136.2 million, is allocated 
for basic research in the current fiscal year with 20 percent or $145.1 
million planned for FY 2009. It is essential that basic research be 
funded at consistent levels from year to year to ensure a continuity of 
effort from the research community in critical areas that will seed 
homeland security science and technology for the next generation of 
Americans.
    This year, we will focus internally on refining our basic research 
``thrust areas'' and developing better means to measure the 
effectiveness of the basic research portfolio. I have asked the 
National Academies to help in this effort.
Product Transition (0 to 3 years)
    Development of the product transition portfolio is driven by our 
customer-led, Capstone Integrated Product Teams (IPTs) that function in 
mission-critical areas to identify our customers' needs and enable and 
transition near-term capabilities for addressing them. These Capstone 
IPTs engage DHS customers, acquisition partners, S&T Division Heads, 
and end-users as appropriate in our product research, development, 
transition and acquisition activities.
    The Capstone IPT process enables our customers to identify and 
prioritize their operational capability gaps and requirements and make 
informed decisions about technology investments. The S&T Directorate, 
in turn, gathers the information it needs to respond with applicable 
technology solutions for closing these capability gaps. The science and 
technology solutions that are the outcome of this process, referred to 
as Enabling Homeland Capabilities, draw upon technologies that can be 
developed, matured, and delivered to our customer acquisition programs 
within three years.
    Our experience over the last year has led us to align our Capstone 
IPTs structure to 12 major areas: Information Sharing/Management; 
Border Security; Chemical Defense; Biological/Agricultural Defense; 
Maritime Security; Cyber Security; Transportation Security; Counter 
IED; Cargo Security; People Screening; Infrastructure Protection; and 
Incident Management (includes first responder inter-operability).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    S&T's product transition/IPT process ensures that appropriate 
technologies are engineered and integrated into the DHS acquisition 
system for our customers. Approximately 53 percent of S&T's investment 
portfolio or $376.0 million is allocated for product transition in the 
current fiscal year with 49 percent or $361.4 million planned for FY 
2009.
Innovative Capabilities (2 to 5 years)
    The Innovation/HSARPA portfolio supports three important efforts to 
put advanced capabilities into the hands of our customers as soon as 
possible: Homeland Innovative Prototypical Solutions (HIPS), High 
Impact Technology Solutions (HITS) and the Small Business Innovative 
Research (SBIR) program.
    HIPS are designed to deliver prototype-level demonstrations of 
game-changing technologies within two to five years. Projects present 
moderate- to high-risk, with a high-payoff if successful.
    HITS are designed to provide proof-of-concept solutions within one 
to three years that could result in high-payoff technology 
breakthroughs. While these projects are high-risk, they offer the 
potential for ``leap-ahead'' gains in capability should they succeed.
    The Small Business Innovative Research (SBIR) program, which the 
S&T Directorate manages on behalf of DHS, issues two solicitations each 
year and generates multiple awards for the small business community. 
The first solicitation for FY 2008 opened in mid-February and the 
second solicitation is planned for release in May. The solicitations 
will address topics in areas that are aligned with the S&T 
Directorate's six technical divisions.
    The Innovation/HSARPA funding request for FY 2008 was $60 million 
and $33 million was approved in the final Appropriations Act. I do not 
believe this reduction reflected any lack of confidence in the 
portfolio on the part of the Congress, but was rather an outcome of the 
extreme pressure in the Appropriations ``end game.'' Therefore, we are 
requesting $45 million in FY 2009 for Innovation's HITS and HIPS 
activities.
Test & Evaluation and Standards
    In 2006, I established the Test and Evaluation and Standards 
Division (TSD). TSD is working closely with DHS Under Secretary for 
Management as well as all DHS components to develop and implement a 
robust Test and Evaluation (T&E) policy for all of DHS that will be 
fully integrated into the Department's Acquisition Policy. The goal of 
the T&E policy will be to establish processes to support the evaluation 
of system efficacy, suitability and safety. TSD has established a T&E 
Council to allow participation by all components of DHS in promoting 
T&E best practices and lessons learned in establishing consistent T&E 
policy and processes for use in acquisition programs throughout DHS. 
Developmental Testing and Evaluation (DT&E) and Operational Testing and 
Evaluation (OT&E) are conducted at levels commensurate with validating 
performance and Technology Readiness Level (TRL) of the system 
throughout the development process. TRL assessments are initiated early 
on S&T projects and are performed throughout development to ensure 
technology is maturing as required and that projects are ready to 
transition to the DHS components at the appropriate time. DT&E is 
performed during the developmental phase of a product or system and is 
concerned chiefly with validating the contractual and technical 
requirements and the attainment of engineering design goals and 
manufacturing processes. OT&E focuses on determining operational 
effectiveness, suitability, and supportability and is performed with 
production representative equipment, with trained operators in an 
operational environment by an independent third party.
    DHS Acquisition and T&E Policy under development will provide the 
appropriate review chain both within DHS as well as the approval 
process for test results and for adequacy of testing. The draft T&E 
policy that is being developed will require user components to 
participate in creating, reviewing and signing the Test and Evaluation 
Master Plan (TEMP). Its primary purpose is to describe the necessary 
Developmental Test and Evaluation (DT&E) and Operational Test and 
Evaluation (OT&E) that needs to be conducted in order to determine 
system technical performance, operational capabilities and limitations. 
The TEMP is an integrated and agreed upon plan to ensure that the right 
tests are conducted and the products are meeting the user requirements. 
Having the customers involved in the test planning, execution, and 
reporting for the technology or system under development will ensure 
that the components are able to use the results and maintain a current 
knowledge during the product development. The TEMP also addresses the 
testing laboratories, capabilities, facilities and ranges required for 
the test program; testing laboratories are accredited/recognized; and 
independent oversight of the tests are performed. Additionally, when 
possible DHS ensures independent operational test teams are involved 
early in the project development to ensure operational shortcomings are 
identified and corrected as early as possible during development. The 
test results will be critical in ensuring that DHS products meet the 
necessary milestones to continue development.
    While the T&E Policy is being finalized, DHS development programs 
are moving forward with the assistance and guidance of TSD in designing 
T&E protocols to assess whether systems meet standards, technical 
specifications and some operational requirements. It is the 
Department's objective to prepare standard T&E master plans, test plans 
and test reports to document the planning, execution and reporting 
phases of the testing. Test plans are required whether the research 
project is being conducted internally or externally to S&T. Red Teaming 
will be included in the test plans as required and be employed post 
deployment when appropriate.
    The DHS components working within the DHS Capstone IPT process 
ensure that the user needs are addressed in the research as well as the 
testing and evaluation. End-user needs are incorporated in the planning 
and design of the tests. All tests will be performed to component 
requirements or DHS adopted standards. Reports of efficacy, safety, and 
suitability are assessed against test criteria which are developed with 
Component input.
    TSD is also developing an accredited/recognized test capability, 
with the goal of testing all products in accredited/recognized 
facilities. The accreditation/recognition process is under development 
and facilities are currently being identified that are capable of 
conducting different aspects of the testing process. Accomplishing 
independent testing in realistic operational environments will better 
assess product effectiveness and suitability. Test results from the 
above process will allow decision-makers to formulate better judgments 
concerning readiness for transition to the next phase of development or 
deployment.
    TSD has an effort under way to ensure that once testing is 
completed both components and first responders have access to product 
performance evaluations. T&E results will be placed on the Responders 
Knowledge Base (RKB) that is funded and managed by FEMA. In addition to 
posting the results on the RKB, the DHS T&E policy will provide 
standard report formats to ensure that the results are useful including 
system limitations and capabilities.
    In the area of standards, I would to like mention our efforts to 
implement the DHS Standards Policy through the development of a 
standards infrastructure and the issuance of guidance. Just as with 
T&E, we have established a Standards Council. TSD and the Standards 
Council have developed and distributed guidance on the participation in 
the development and use of non-government standards. We continue to 
evaluate and adopt voluntary consensus standards in support of the 
Homeland Security Grant Program as well as key initiatives such as 
National Preparedness. Our standards development program continues its 
successful support for research on standards to support national needs 
in homeland security. In August of 2007 the Office of Standards 
published its first Annual Report which documents the work and 
accomplishments of the previous year. In the years ahead we will be 
focusing on refining our investments to reflect the evolving challenges 
facing the Department, utilizing S&T's new operating model and the 
outputs from the Capstone IPTs. The range of projects includes trace 
and bulk explosives detection, biometrics, credentialing, chemical and 
biological counter-measures, responder protective equipment and many 
more. The standards office engages experts from the DHS components and 
a variety of federal partners, and leverages the outstanding work of 
private sector standards development organizations.

PARTNERSHIPS

    Over the past year, we have built partnerships that have helped us 
align our efforts within the S&T Directorate, across the Department, 
and with our public and private partners around the world. Within the 
Directorate, we have developed and published the S&T Strategic Plan 
that provides the strategy and planning framework to guide the 
Directorate's activities over the next five years. Through the Capstone 
IPT process, we have aligned our transition portfolio to our customers' 
needs. In basic research, we have aligned our university-based Centers 
of Excellence and, as a result of a meeting I held with the Directors 
of the Department of Energy (DOE) National Laboratories in May 2007, 
the National Laboratories to our six technical divisions to focus this 
enormous capability more closely on the fundamental knowledge gaps that 
limit our customer oriented applied research programs. We announced 
five new COEs on February 26, 2008, which will further satisfy the 
Directorate's need for university-based fundamental research.
    Over the past year my Office of Interagency Programs (and First 
Responder Liaison) has worked very closely with DOD to develop and 
enhance information sharing opportunities. Among the accomplishments 
were the development of an implementing agreement among the partners 
and a senior level DHS-DOD working group. These accomplishments will 
help ensure the best use of resources while avoiding duplication of 
effort and will promote further cooperation among our partners. The 
first S&T liaison position within the California Governor's Office of 
Homeland Security was also established to enhance interagency efforts 
with our customers. Many of the experiences of this successful pilot 
were used as a working model for engaging with our federal, State, 
local and tribal customers We will continue to conduct national 
interagency outreach through site visits, meetings, conferences and 
symposia to promote federal, State, local, and tribal inter-
operability, collaboration, and coordination in the area of Science and 
Technology.
    We also developed the Coordination of Homeland Security Science and 
Technology document that establishes the baseline for the efforts of 
the entire Federal Government homeland security research and 
development community. This document lays out the roles and 
responsibilities of federal agencies as well as initiatives already 
under way to counter threats to the homeland. It identifies strategic 
goals through 2015 and intermediate steps to achieve those goals, and 
is the first step in developing a more prescriptive plan that will 
guide the efforts of all participants in the Homeland Security Science 
and Technology enterprise. For the next steps in the development of 
that plan, I intend to work with the Office of Science and Technology 
Policy's National Science and Technology Council to utilize standing 
processes and committees, specifically the Committee on National and 
Homeland Security, which I co-chair. Continued development of the plan 
concurrent with the Quadrennial Homeland Security Review beginning this 
year will play an important role in helping align strategies and 
missions to adapt to a fast-changing world and an ever evolving enemy.
    Industry is a valued partner of DHS S&T and its continued 
participation in developing solutions for homeland security 
applications is vital to our effort to safeguard the Nation. Consistent 
with S&T's new structure, our Innovation/HSARPA portfolio and six 
technical divisions will be releasing BAAs that seek industry 
participation to address specific challenges in their respective areas. 
For example, Innovation/HSARPA has already posted BAAs for projects 
that cross all six divisions, seeking prototype or proof of concept 
demonstrations within 1-5 years. Innovation/HSARPA plans to release 
additional BAAs as new technology developments permit and as new gaps 
in capabilities for homeland security are identified. We have issued a 
Long Range BAA (08-01) that will remain open throughout the fiscal 
year. This BAA allows both national and international public and 
private sector providers to offer solutions to a very broad range of 
gaps and requirements. As I have often said, no one knows where good 
ideas come from and for that reason I have been personally proactive in 
both seeking out and receiving technology briefs and opportunities from 
all sources. This is a culture I am working to instill throughout the 
DHS S&T Directorate.
    Additionally, DHS S&T has held several Stakeholder Conferences to 
foster business partnerships with key customers and partners, including 
industry, Federal, State, and local government leaders, and academia. 
The Command, Control, and Inter-operability Division also held their 
annual Industry Roundtable to engage industry leaders on the future of 
communications inter-operability issues.
    The Support Anti-terrorism by Fostering Effective Technologies 
(SAFETY) Act of 2002, administered in the S&T Directorate, continues to 
be a valuable tool in expanding the creation, proliferation and use of 
cutting edge anti-terrorism technologies throughout the United States. 
During FY 2007, the Office of SAFETY Act Implementation achieved an 
increase of 81 awards, an 83 percent increase over the total cumulative 
number of approvals attained over the previous three years of the 
program. Approximately 86 percent of the approved awards during FY 2007 
have relevance for the classes of capabilities and needs identified by 
the Science and Technology Capstone IPTs. The number of applications 
was up 63 percent, while processing time has been reduced 31 percent. 
The career federal staffing level of the SAFETY Act office was 
increased to three, thus providing more continuity of leadership, and 
permitting more attention and a quicker response to individual 
applicants. I am mindful of the interest in this program in the 
Congress and across the Nation.
    As part of our outreach efforts to encourage greater industry 
participation, the Directorate held the first Homeland Security Science 
& Technology Stakeholders Conference in May 2007 here in Washington. We 
were partners in a conference in London last December that focused on 
international outreach. And we held a conference in Los Angeles in 
January 2008, focused on ``Putting First Responders First.'' On March 
19 and 20, we will sponsor the second University Programs Summit here 
in Washington, an event at which participants will show off the results 
of their fantastic research at the colleges and universities that are 
part of the Homeland Security University Centers of Excellence. We will 
have another industry stakeholders' conference in Washington, June 2-5, 
2008. I invite you and all elected Members and staffs to attend these 
events so you might see for yourself the power of innovation and 
technology in making our nation safer.
    I also know that we must look beyond our nation's borders for 
solutions to combating domestic terrorism. Therefore, consistent with 
DHS enabling legislation and the recent Implementing the 
Recommendations of the 9/11 Commission Act, the International Programs 
Division is responsible for coordinating international outreach efforts 
to help us tap into science and technology communities across the 
globe. We have proactively pursued bilateral technology and 
programmatic cooperation with my counterparts in the United Kingdom, 
Canada, Australia, Sweden, Singapore, the European Union, Germany, 
Mexico, France, Japan, and Israel. Formal agreements currently exist 
with Canada, the UK, Australia, Sweden and Singapore. With our current 
partners, we have twenty concrete projects in a number of high priority 
research areas including air cargo explosive detection, chemical and 
biological counter-measures, visualization and analytics, critical 
infrastructure protection, and incident management. In addition to 
these projects, active information sharing with our foreign partners 
has reduced duplication of research efforts, streamlined project 
development, and synergized the expertise of the broader international 
community to produce mutually beneficial results. The International 
Programs Division maximizes these relationships across the U.S. 
Government through active coordination with DHS Components and other 
agencies, including the Departments of State and Defense. Embedded S&T 
liaisons in Europe, the Americas and Pacific/Asia cast a wide global 
net to seek out new science and technology solutions with current and 
prospective partners. Annual academic grant competitions are open to 
the global community and provide world-wide access to cutting-edge S&T 
research in support of our homeland security mission. S&T is actively 
engaging with partners across the globe to develop coordinated efforts 
and joint solutions to our shared security challenges.

PRODUCT

    I am committed to best apply across the S&T Directorate the 
resources you have wisely provided in ways that best serve the American 
people and better secure our homeland. Your support over the last year 
has allowed us to ``hit our stride,'' and I humbly ask for your 
continued trust and support of the President's FY 2009 Budget Request 
to allow us to build upon that momentum. The following are a few 
examples of products we have developed and in some cases transitioned 
to our customers.
Border and Maritime Security

        <bullet>  Developed a lightweight shipping container with 
        embedded security features within its walls, doors and floor to 
        detect intrusions. Shippers benefit from weight savings by 
        allowing them to load more goods per container, encouraging the 
        use of these more secure containers.

        <bullet>  Conducted a joint test of the Marine Asset Tag 
        Tracking System (MATTS) with Japan. When fielded, MATTS will 
        provide the ability to track shipping containers in near-real 
        time from their origin to final destination using a remote 
        global communications and tracking device interfaced with 
        sensors that detect container breaching.

Chemical and Biological

        <bullet>  Completed the Project BioShield material threat 
        determinations for all traditional biothreat agents of 
        significant public health concern. Such determinations are 
        required before the authorized use of the BioShield Special 
        Reserve Fund to procure new medical counter-measures.

        <bullet>  Transitioned BioWatch Generation 1 and Generation 2 
        operations to the Office of Health Affairs (OHA).

Command, Control and Inter-operability

        <bullet>  Combined several government-funded testbeds to 
        increase cyber security capabilities to create a realistic 
        model of the Internet on which to test cyber security 
        technologies.

        <bullet>  Assisted states in identifying and implementing 
        effective statewide technical inter-operability solutions; 
        conducted piloted programs to assess and demonstrate data and 
        video technologies in real-world environment.

Explosives

        <bullet>  Evaluated and tested commercial off-the-shelf systems 
        capable of detecting homemade explosives to find the most 
        effective existing technologies.

        <bullet>  Completed a system false alarm analysis of deployed 
        check baggage technology and provided results to the 
        Transportation Security Administration (TSA).

Human Factors

        <bullet>  Developed a database of public needs that were unmet 
        during Hurricanes Katrina and Rita and made recommendations to 
        address those needs during future emergencies.

Infrastructure and Geophysical

        <bullet>  Developed a risk-informed decision support system. 
        The system provides information for making critical 
        infrastructure protection (CIP) decisions by considering all 17 
        critical infrastructure sectors and their primary 
        interdependencies, and computing human health and safety, 
        economic, public confidence, national security, and 
        environmental impacts. Built out CIP-Decision Support System 
        (DSS) to include cyber-disruptions, nuclear event, and 
        physical/natural disaster disruption scenarios.

        <bullet>  Developed the system requirements and designs for a 
        first responder 3D location system for tracking personnel that 
        provide incident commanders situational awareness through 
        accurate location and monitoring inside threatened buildings, 
        collapsed buildings, and subterranean areas.

Innovation

        <bullet>  Initiated Homeland Innovative Prototypical Solutions 
        (HIPS) to deliver prototype-level demonstrations of game 
        changing technologies in two to five years. These projects are 
        moderate-to-high risk with high payoff potential.

        <bullet>  Started High Impact Technology Solutions (HITS) to 
        provide proof-of-concept answers that could result in high 
        technology breakthroughs. These projects have the potential to 
        make significant gains in capability; however, there is a 
        considerable risk of failure.

        <bullet>  Built upon the efforts in Explosives and demonstrated 
        the ability of sensors based on a high altitude platform to 
        detect the launch of and track MANPADS.

        <bullet>  Investigated various technologies including probe 
        systems to be installed on the cranes that on-load and off-load 
        ship carried containers, sensors and container materials to 
        improve the effectiveness and efficiency of the screening of 
        cargo containers.

Laboratory Facilities

        <bullet>  Managed the operations and maintenance of specialized 
        DHS laboratories and infrastructure including the Plum Island 
        Animal Disease Center (PIADC), portions of the National 
        Biodefense Analysis and Counter-measures Center (NBACC), 
        Chemical Security Analysis Center (CSAC), Transportation 
        Security Laboratory (TSL), and the Environmental Measurements 
        Laboratory (EML).

        <bullet>  Began operation of the NBACC facility as a Federally 
        Funded Research and Development Center (FFRDC).

        <bullet>  Started construction of the Chemical Security 
        Analysis Center (CSAC).

        <bullet>  Conducted the conceptual design of the National Bio 
        Agro Defense Facility (NBAF), which will be an integrated 
        animal, foreign animal, and zoonotic disease research, 
        development, and testing facility that will support the 
        complementary missions of DHS and U.S. Department of 
        Agriculture (USDA). Down-selected potential sites for the NBAF.

Test & Evaluation (T&E) and Standards

        <bullet>  Continued to develop standards for an integrated 
        chemical, biological, radiological, nuclear, and explosive 
        (CBRNE) sensor.

        <bullet>  Completed multi-modal biometrics standards, including 
        standards for latent fingerprint analysis, rapid biometric 
        evaluation, and biometric image and image feature quality.

        <bullet>  Developed performance standards for emergency 
        responder locator communications in collapsed structures. These 
        standards will apply to new signal processing technologies that 
        allow amplification of weak signals through rubble from 
        collapsed structures.

Transition

        <bullet>  Aligned and coordinated the Directorate's transition 
        effort with the Departmental component's requirements through 
        the use of Capstone Integrated Product Teams (IPT) and provided 
        support and analysis to the customer-led IPTs in developing 
        prioritized science and technology capability gaps based on 
        their experience and projected requirements.

        <bullet>  Conducted a Marine Asset Tag Tracking System (MATTS) 
        test and workshop/conference on results with Japan and 
        conducted a bi-national S&T exercise with Sweden to identify 
        and describe transformational approaches to mitigating the 
        effects of improvised explosive devices in mass transit 
        systems.

University Programs

        <bullet>  Established five new DHS Centers of Excellence (COE) 
        and developed a number of efforts to improve the capabilities 
        of Minority Serving Institutions (MSIs) to conduct research in 
        areas critical to homeland security and to develop a new 
        generation of scientists capable of advancing homeland security 
        goals.

        <bullet>  Provided scholarships for undergraduate and 
        fellowships for graduate students pursuing degrees in fields 
        relevant to homeland security.

FY 2009 BUDGET OVERVIEW

    The S&T Directorate's FY 2009 Budget Request reflects the 
refinement of our four ``Ps'' and a commitment to the S&T investment 
portfolio. The request of $868.8 million is approximately five percent 
over the FY 2008 appropriation and nine percent over the FY 2008 
request.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Management and Administration request reflects several 
efficiency initiatives to make better use of its resources and better 
accounts for program activity costs at the laboratories. The Research, 
Development, Acquisition and Operations request is primarily based on 
the increased support for the development of additional technologies 
for specific high-priority, customer-identified needs identified during 
the S&T Capstone IPT process.

Administration (M&A)
    The S&T Directorate requests $132.1 million for M&A in FY 2009. 
This is a decrease of $6.5 million from the FY 2008 budget request. 
This reflects a shift of $14 million and 124 positions to the 
Laboratory Facilities PPA combined with a $7.5 million increase to 
fully fund our planned FTEs.

Research, Development, Acquisitions, and Operations (RDA&O)
    The S&T Directorate requests $736.7 for RDA&O in FY 2009. This is 
an increase of $80.2 above the FY 2008 budget request and $45.0 above 
the FY 2008 appropriation. The following is a summary of the FY 2008 to 
FY 2009 changes--many are due to the increased support for the 
development of additional technologies for specific high-priority, 
customer needs identified during the S&T Capstone IPT process, 
specifically:

            Borders and Maritime Security
    The FY 2009 program increase of $9.4 million above the FY 2008 
request allows the development of additional technologies for specific 
high-priority, customer-identified needs identified during the S&T 
Directorate's Capstone IPT process. The increase will allow for the 
development of technologies for advanced detection, identification, 
apprehension and enforcement capabilities along the maritime borders 
that support a framework that includes Coast Guard partners for rapid, 
coordinated responses to anomalies and threats. A science and 
technology investment in these areas will provide significant risk 
mitigation complementary to proposed major acquisition efforts such as 
the Coast Guard's Command 21 program. This increase will also provide 
tools and technologies to border security and law enforcement officers 
allowing for efficient, effective and safe vehicle and vessel 
inspections. These tools will improve Coast Guard boarding teams' and 
Border Agents' effectiveness and enhance officer/agent safety while 
searching vessels/vehicles.

            Chemical and Biological
    The FY 2009 program decrease of $7.6 million from the FY 2008 
appropriation is in large part due to the BioWatch Gen 3 Detection 
Systems and Detect-to-Protect Triggers and Confirmers projects within 
the Surveillance and Detection R&D Program of the Biological Thrust 
area coming to an end in FY 2009. Also, the Autonomous Rapid Facility 
Chemical Agent Monitor (ARFCAM) and Low Vapor Pressure Chemicals 
Detection System (LVPCDS) projects in the Detection program of the 
Chemical Thrust area are ramping down to end in FY 2010.

            Command, Control, and Inter-operability
    The FY 2009 program increase of $5.4 million over the FY 2008 
appropriation funds the development of additional technologies for 
specific high priority customer-identified needs identified during the 
S&T Directorate's Capstone IPT process. The increase in Cyber Security 
R&D will allow the division to address Supervisory Control and Data 
Acquisition (SCADA) and Process Control Systems (PCS) security 
increasing the protection and improving the resiliency of the electric 
distribution grid. These systems will proactively manage threats by 
identifying and responding to vulnerabilities and threats before they 
are maliciously exploited to significantly impact critical 
infrastructure. They will also provide autonomy of operations that can 
quickly respond to natural disasters and security events and address 
new vulnerabilities.

            Explosives
    The increase in the FY 2009 request of $32.4 million over the FY 
2008 request supports Counter-IED Research, which includes Vehicle 
Borne Improvised Explosive Device/Suicide Bomber Improvised Explosive 
Device (VBIED/SBIED) Program, the Render Safe Program, and the 
Detection and Neutralization Tools Program. The increase in funding in 
the Counter-IED Research will allow the Explosives division to improve 
large threat mass detection in such areas as the transit environment, 
special events and other large areas.
    The implementation of Homeland Security Presidential Directive 19 
(HSPD-19), Combating Terrorist Use of Explosives in the United States, 
requires new science and technology solutions to address critical 
capability gaps in the areas of deterring, predicting, detecting, 
defeating, and mitigating the use of IEDs in the United States. The 
Office for Bombing Prevention (OBP) is currently assessing the Nation's 
ability to address this threat and is developing a prioritized set of 
technology gaps. The S&T Directorate is working with OBP to support 
basic science and develop technologies for the following kill chain:

        <bullet>  Deter: Actionable Social and Behavioral Indicators of 
        IED Attacks; Intent-based Counter-measures;

        <bullet>  Predict: IED Target Projections; IED Staging Area 
        Projections; Anomalous Behavior Prediction; Suicide Bombing 
        Prediction; Deceptive Behavior Screening; Multi-Modal 
        Behavioral & Biometric Screening;

        <bullet>  Detect: Suicide Bomb Detection; Technology 
        Demonstration & System Integration; VBIED Detection; Canine 
        R&D; Tagging R&D; Standards;

        <bullet>  Defeat: Electronic Counter-measures; Robotics; Render 
        Safe & Diagnostics; Directed Energy; Post Blast Forensics; 
        Forensic Marking; Bomb Components; Outreach; and

        <bullet>  Mitigate: Blast Mitigation; Body Armor; Inerting.

    We are performing valuable work to improve methods of detecting 
explosives threats on people, in personal items and in cargo. As part 
of the Checkpoint Program, S&T's Explosives Division is working with 
TSA to complete test and evaluation efforts on the Whole Body Imaging 
system that could help operators of check points better identify 
potential threats. We are also conducting tests to enhance the 
screening of carried baggage and personal items. We are conducting 
Operational Test & Evaluation (OT&E) of the Fido II Explosives 
Detection System and currently have units deployed at multiple airports 
in the United States. The portable detection system has been enhanced 
to detect liquid explosive components and will be used by TSA to 
counter the growing threat liquid explosives pose to transit security. 
This effort is complemented by our significant work to characterize the 
homemade and liquid explosives threat, which has included live fire 
tests to assess potential damage and the efficacy of hardening 
materials.
    In addition to addressing the risk of catastrophic loss resulting 
from IEDs in carry-on baggage or at public events, our Explosives 
Screening Program is identifying and developing the next generation of 
screening systems which will support continuous improvements toward the 
Congressionally directed goal of 100 percent screening of aviation 
checked baggage by electronic or other approved means with minimum or 
no impact to the flow of people or commerce. We have continued our work 
on the Manhattan II and began test and evaluation efforts of the 
system's ability to identify real explosive devices, both homemade and 
conventional. We have also worked with industry to develop a common 
performance standard for coupling algorithms and hardware. Another part 
of our effort is the Air Cargo Explosives Detection pilot program. We 
began operations at San Francisco International Airport and at 
Cincinnati-Northern Kentucky International Airport, and launched and 
completed operations at Seattle-Tacoma International Airport. At all 
locations we are capturing vital information for TSA, including data on 
the costs of running a system capable of screening amounts of cargo 
above current levels, including equipment needs, staff requirements, 
and system upkeep, in addition to the impacts of these upgrades to 
overall airport operations. This data can be extrapolated to airports 
nationally, based on, among other things, the amount of cargo they 
handle and airport size. It will also allow TSA to develop operational 
plans that incorporate proven ways to screen air cargo while 
maintaining an effective and efficient air transport system.

            Human Factors
    The budget request for FY 2009 is $12.5 million, which is $1.7 
million less than the amount enacted for FY 2008. In FY 2008, the Human 
Factors Division received funds for the Institute for Homeland Security 
Solutions (IHSS) to conduct applied technological and social science 
research. In FY 2009, the Human Factors Division is not requesting any 
funds for IHSS. The Division still intends to support efforts that 
address high-priority capability gaps in biometrics and credentialing, 
suspicious behavior detection, hostile intent determination, group 
violent intent modeling, and radicalization deterrence as identified by 
customers through the Capstone Integrated Product Team (IPT) for People 
Screening and the Technology Oversight Group (TOG), chaired by the 
Deputy Secretary. Two other Capstone IPTs, Border Security and 
Explosives Prevention, also identified Suspicious Behavior Detection as 
critical to meeting their respective high-priority capability gaps.

            Infrastructure and Geophysical
    The FY 2009 request of $37.8 million is an increase of $13.8 
million over the FY 2008 request to fund several new program areas 
specifically identified by our customers, with efforts focused on high 
priority technology gaps in the areas of Infrastructure Protection and 
Emergency Incident Management. Specifically, funded efforts will 
improve the protection of our critical infrastructure by providing 
technologies for hardening these vital critical infrastructure assets 
and for rapid response and recovery for critical infrastructure assets 
to limit damage and consequences and allow for normal operations to be 
resumed more quickly than would otherwise be possible.

            Innovation
    The FY 2009 program increase of $12 million reflects an increase in 
scope of existing programs as they mature and might allow for 
additional projects that would address gaps identified by the S&T 
Capstone IPT process. These projects are high risk in nature but would 
dramatically increase capabilities in responding to threats posed by 
terrorism and natural disasters. The high risk factor means that the 
Office of the Director of Innovation requires flexibility in the 
projects it funds. These projects will reach critical decision points 
to continue or stop. New projects are always under consideration, and 
the FY 2009 request will potentially fund new projects or current ones 
that justify further development based on results.

            Laboratory Facilities
    The FY 2009 request of $146.9 million is an increase of $43.1 
million over the FY 2008 appropriations. The S&T Directorate intends to 
cover the FY 2009 operations and maintenance (O&M) start-up costs of 
the new NBACC facility. These costs include the installation and 
outfitting of portable laboratory equipment and furnishings and funding 
interim space lease. Also in FY 2009, the S&T Directorate intends to 
move the remaining functions of EML into much smaller office space in 
the same building or another General Services Administration (GSA) 
facility in the New York area and pay for a one-time cost for final 
cleanup of EML space (e.g., final disposal of contaminated material, 
removal of fume hoods, large exhaust ducting, furnaces, and shielded 
spaces). Also, the Directorate will begin a detailed design of the 
National Bio and Agrodefense Facility (NBAF) which will support the 
initiation of construction in FY 2010.
    The increase also reflects a transfer of funds from Management and 
Administration to the Laboratory Facilities PPA to pay for salaries and 
benefits of FTEs located at the laboratories. All Homeland Security 
laboratory employees work on RDA&O products. The shift of laboratory 
FTEs into the RDA&O account better reflects the actual Science and 
Technology RDA&O program costs.

            University Programs
    In FY 2009, the S&T Directorate is requesting $5.5 million less for 
its University Programs. This decrease reflects no funding request for 
the Naval Post Graduate School and a reduction to the educational 
programs within the S&T Directorate that fund scholars and fellows in 
homeland security related fields.

            Transition
    The FY 2009 program increase of $1.5 million will support a DHS 
competition for a new Federally Funded Research and Development Center 
(FFRDC). The FFRDC will provide discreet, independent, and objective 
analysis to inform homeland security policies and programs and ensure 
continuity of FFRDC support.

            Test Evaluation and Standards
    The S&T Directorate requests $3.8 million less for FY 2008 than 
enacted for FY 2008. This decrease is the result of having initiated 
the independent peer review program in FY 2008 and the program will 
therefore not need additional funding in FY 2009. The S&T Directorate 
is also implementing a reallocation of funds by the TOG during the 
Capstone IPT process.

CONCLUSION

    In conclusion, I am pleased to report that the S&T Directorate is 
well positioned today to mobilize the Nation's vast technical and 
scientific capabilities to enable solutions to detect, protect against 
and recover from catastrophic events.
    We appreciate the many demands on the taxpayers' precious dollars 
and you have my continued commitment that the S&T Directorate will be 
wise stewards of the public monies you have entrusted to us. We are 
steadfast in our resolve to serve the best interests of the Nation by 
investing in the talent and technology that will provide America with a 
sustainable capability to protect against acts of terror and other 
high-consequence events for generations to come.
    Members of the Committee, I thank you for the opportunity to meet 
with you today. I truly believe that through Science and Technology can 
come Security and Trust, and I look forward to working with you to meet 
our homeland security challenges with a renewed sense of purpose, 
mission and urgency in the last year of the Administration.

                       Biography for Jay M. Cohen
    Department of Homeland Security, Under Secretary for Science and 
Technology, Jay M. Cohen is a native of New York. He was commissioned 
in 1968 as an Ensign upon graduation from the United States Naval 
Academy. He holds a joint Ocean Engineering degree from Massachusetts 
Institute of Technology and Woods Hole Oceanographic Institution and 
Master of Science in Marine Engineering and Naval Architecture from 
MIT.
    His early Navy assignments included service on conventional and 
nuclear submarines. From 1985 to 1988 Cohen commanded USS HYMAN G. 
RICKOVER (SSN 709).
    Following command, he served on the U.S. Atlantic Fleet as a senior 
member of the Nuclear Propulsion Examining Board, responsible for 
certifying the safe operation of nuclear powered ships and crews.
    From 1991 to 1993, he commanded USS L.Y. SPEAR (AS 36) including a 
deployment to the Persian Gulf in support of Operation DESERT STORM.
    After Spear, he reported to the Secretary of the Navy as Deputy 
Chief of Navy Legislature Affairs. During this assignment, Cohen was 
responsible for supervising all Navy-Congressional liaison.
    Cohen was promoted to the rank of Rear Admiral in October 1997 and 
reported to the Joint Staff as Deputy Director for Operations 
responsible to the President and DOD leaders for strategic weapons 
release authority.
    In June 1999 he assumed duties as Director Navy Y2K Project Office 
responsible for transitioning all Navy computer systems into the new 
century.
    In June 2000, Cohen was promoted in rank and became the 20th Chief 
of Naval Research. He served during the Iraq war as the Department of 
the Navy Chief Technology Officer (a direct report to the Secretary of 
the Navy, Chief of Naval Operations and Commandant of the Marine 
Corps). Responsible for the Navy and Marine Corps Science and 
Technology (S&T) Program (involving basic research to applied 
technology portfolios and contracting), Cohen coordinated investments 
with other U.S. and international S&T providers to rapidly meet war 
fighter combat needs. After an unprecedented five and a half year 
assignment as Chief of Naval Research, Rear Admiral Cohen retired on 
February 1, 2006.
    Under Secretary Cohen was sworn in to his current position at the 
Department of Homeland Security on August 10, 2006.

    Chairman Wu. Thank you very much, Mr. Under Secretary. Mr. 
Oxford.

  STATEMEHT OF MR. VAYL S. OXFORD, DIRECTOR, DOMESTIC NUCLEAR 
       DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good morning, Chairman Wu, Ranking Member 
Gingrey, and other distinguished Members of the Subcommittee. I 
would like to thank the Committee for the opportunity to 
discuss our research and development priorities for Fiscal Year 
2009.
    As always, we look forward to the engagement with this 
committee on an annual basis and throughout the year. Before I 
go into detail on our priorities for 2009, I would like to 
share some key accomplishments that we have had since we last 
appeared before you.
    In December, we met the congressionally mandated goal of 
scanning 98 percent of all incoming cargo at U.S. seaports. 
Three years ago, when DNDO was established, we were only 
scanning 22 percent of cargo entering through our major 
seaports. And when we now couple that with the fact that we are 
scanning 100 percent of all cargo coming across the southern 
border, we are now scanning 96 percent of all cargo coming into 
the United States for radiation. We have also equipped the U.S. 
Coast Guard, all their boarding teams, with radiation detection 
equipment, so they can have a multi-mission capability.
    To address other threats, DNDO supplied Customs and Border 
Protection with additional hand-held detectors, and as of 
December 2007, CBP is now scanning all international general 
aviation airplanes arriving in the United States. We are also 
implementing a program to enhance physical security of high 
risk radioactive sources in U.S. medical facilities. Our 
programs that support long-term research have also been very 
successful.
    We have seen tremendous involvement on behalf of the 
National Laboratories, private industry, and academia, in DNDO 
research efforts. I am proud to say that these programs are 
already yielding some very promising results. As an example, 
our Advanced Technology Demonstration with the Intelligent 
Personal Radiation Locator, or IPRL, is expected to be complete 
in 2009, and transition to systems development in 2010. This 
program is based on user needs for a next generation personal 
radiation detection system, and will be used by first 
responders, law enforcement, and counter-terrorism communities.
    Our Academic Research Initiative awarded 22 grants this 
last year, and currently supports over 70 graduate students in 
nuclear and radiological research areas. This year, we are 
hosting the first annual Grantee Conference in April to 
showcase research and foster academic collaboration. In fiscal 
year 2008 and 2009, we will apply an additional $26 million in 
follow-on grants and new awards to the academic environment. 
This will help develop the nuclear scientists and engineers of 
the future.
    Our DNDO research philosophy is very broad. Our work spans 
both near-term and long-term transformational concepts, as 
mentioned by the Chairman and the Ranking Member. In our case, 
it is driven by DNDO's architectural analysis, and by user 
needs. We translate gaps in the detection architecture and 
associated user needs into specific technical areas to define 
our research agenda. We use pilots to integrate existing or 
developmental systems into operational concepts, to refine 
capabilities for the radiological and nuclear detection 
missions.
    DNDO does provide a wide variety of products to our State 
and local partners. These include handbooks on how to use 
equipment and how to operate the radiation detection mission. 
We provide training for those that are equipped with radiation 
detection devices, and we also provide them with preferred 
equipment recommendations for use in the grant process. And 
finally, we provide a 24/7 technical reach-back capability for 
all State and local users.
    For technical needs that exist beyond current capabilities, 
we have a robust transformational research program that aims to 
do several things. First of all, fulfill new mission needs, to 
reduce system cost, to increase technical performance against 
the full spectrum of radiological and nuclear threats, and 
demonstrate and evaluate technology to transition to systems 
development. Our transformational research program has three 
key benefits. It yields new, promising detector materials and 
concepts; it focuses the U.S. technical community and industry, 
National Laboratories and academia, on the highest threat 
nuclear detection priorities, and finally, it is beginning to 
reverse the trend in the nuclear expertise pipeline through our 
Academic Research Initiative and forensics work.
    DNDO's research efforts are underpinned by sound system 
engineering processes and an extensive test capability that we 
will talk about today, and allows us to evaluate systems 
against realistic threats in operationally relevant 
environments. Our tests not only evaluate the technical 
performance of systems, but also involve our customers.
    In conclusion, Mr. Chairman, DNDO's 2009 budget reflects a 
concerted effort to address vulnerabilities and needs. The 
challenges that lie ahead require a coordinated effort on 
behalf of the best scientific minds in government, academia, 
and the private sector.
    We have made good progress, but much work remains to be 
done. We are anxious to work with the Committee as we go 
forward, and with that, Mr. Chairman, this concludes my 
prepared statement. I will be happy to answer any questions you 
have.
    [The prepared statement of Mr. Oxford follows:]

                  Prepared Statement of Vayl S. Oxford

Introduction

    Good morning Chairman Wu, Ranking Member Gingrey, and distinguished 
Members of the Subcommittee. As Director of the Domestic Nuclear 
Detection Office (DNDO), I would like to thank the Committee for the 
opportunity to discuss our research and development (R&D) priorities 
for Fiscal Year 2009. I am pleased to be here with my counterparts from 
the Science and Technology Directorate, Under Secretary Cohen and Mr. 
Ryan.
    DNDO has made significant progress over the past three years 
towards mission success, from both a scientific and operational support 
standpoint. In sharing our Fiscal Year 2009 research and development 
agenda, it is my hope that the progress we have made is evident, and 
that future efforts to create better means to stop radiological and 
nuclear terrorism are well justified.
    Consistent with previous years, over half of DNDO's Fiscal Year 
2009 budget request is intended for R&D activities. We categorize our 
R&D work into two areas: enhancement of existing technologies through 
near-term, spiral development; and long-term transformational R&D that 
will deliver revolutionary improvements in the cost, performance, and 
associated operational burdens of nuclear detection systems. Of 
particular focus for Fiscal Year 2009 is developing breakthrough 
technologies to meet new mission requirements. We have made great 
progress in deploying detection systems to our Ports of Entry (POEs). 
At the end of 2007, 100 percent of Southern border container traffic 
and 98 percent of all seaport container traffic was being screened for 
radiological and nuclear threats. While work remains at our ports of 
entry, our research and development efforts must look beyond simply 
countering threats that may come through the supply chain. Therefore, 
we are focusing on developing solutions that can effectively counter a 
determined and mobile adversary who will seek routes to bypass existing 
security measures.
    The architectural analysis conducted by DNDO is the driving force 
behind this shift in our research agenda. We know that unconventional 
pathways sought by the enemy--be it through our waterways or general 
aviation--present technical and operational challenges that cannot be 
easily resolved by existing technologies. DNDO is working with our 
interagency partners, Customs and Border Protection, the U.S. Coast 
Guard, State and local authorities, and others to gather user 
requirements and develop viable concepts of operation. We are then 
translating this information about gaps in the existing detection 
architecture and associated user requirements into specific technical 
areas that define our long-term research agenda. In my testimony today, 
I will talk about these technical areas and provide a sampling of our 
projects that are already yielding promising results. I will also touch 
upon how DNDO conducts test and evaluation activities, and coordinates 
its research and development efforts with other DHS components, federal 
agencies and private industry.

Near-Term Research Priorities

    DNDO's near-term focus is on making further improvements to 
radiation detection capabilities for the Nation's POEs as well as 
developing solutions for non-POE applications. DNDO is continuing our 
Advanced Spectroscopic Portal, or ASP, program, which improves upon 
existing polyvinyl toluene (PVT)-based radiation portal monitors that 
are currently deployed throughout the global architecture. In Fiscal 
Year 2009, we will be conducting research to develop advanced systems 
for use in maritime, general aviation, and rail environments. We will 
specifically be developing systems for use in on-dock rail 
configurations to provide scanning solutions for seaports that load 
cargo directly from ships to rail cars, therefore bypassing typical 
exit gate screening operations. In addition, it is our expectation that 
Fiscal Year 2009 will bring about full-rate production and deployment 
of ASP systems at the Nation's POEs.
    DNDO is also working on Human Portable Radiation Detection Systems, 
or HPRDS, to improve current hand-held and backpack radiation detection 
systems. In previous years, our efforts have been focused on acquiring 
systems to meet the imminent operational needs of our users--Customs 
and Border Protection and the Coast Guard. DNDO and the Coast Guard 
implemented a Joint Acquisition Strategy, ensuring that every Coast 
Guard boarding team was equipped with radiation detection equipment by 
the end of 2007. In Fiscal Year 2009, DNDO will be improving detector 
sensitivity and identification capabilities, reducing false alarm 
rates, and ensuring that next-generation systems are more user-friendly 
for system operators. In addition, DNDO will be gathering data for 
software improvements and conducting testing to ensure that HPRDS under 
development are able to meet performance specifications. Hand-held and 
backpack systems will also be used in a variety of DNDO pilot programs, 
including maritime and aviation efforts, to determine how best to 
utilize this type of technology to meet emerging mission requirements.

Long-Term Research Priorities

    New solutions are required to create a multi-layered detection 
system that is responsive to the changing threat environment. Not all 
of these solutions are on the immediate horizon. DNDO's long-term 
research agenda fills gaps in the present detection architecture that 
exist because of performance issues, cost, or lack of capabilities. We 
have several programs underway that support long-term research--
Exploratory Research, Advanced Technology Demonstrations (ATDs), and a 
dedicated Academic Research Initiative. There is tremendous involvement 
with the National Labs, private industry, and academia for these 
efforts. I am proud to say that these programs have already yielded 
some very promising results that we hope will make a tangible impact on 
this nation's nuclear detection capabilities.
    Our Exploratory Research program focuses on technical solutions 
that are feasible and show significant promise, but require further 
concept development and demonstration. Successes to date include the 
development of a new scintillating material that has very high light 
output, good energy resolution, and is potentially inexpensive to scale 
up for use as a large detector. We also have developed a new 
semiconductor material, which is proving to be as good as the best 
current room temperature materials, but should be easier to grow to a 
large size. We have also seen breakthroughs in passive detection of 
shielded special nuclear material. Finally, our project that integrates 
video with directional gamma imaging has made good progress towards 
making it feasible for us to ``tag'' vehicles that might be 
transporting a nuclear threat.
    In Fiscal Year 2009, we will focus on continuing research into new 
detector materials, passive and active detection concepts, and systems 
integration. Over $16 million is dedicated in Fiscal Year 2009 to begin 
new projects. Mature projects become candidates for future ATD program.
    For our ATD program, leading edge technological concepts (in many 
cases technology demonstrated conceptually under Exploratory Research) 
are further developed, tested, and evaluated. Specifically, the basic 
technological components are integrated into an experimental device 
with reasonably realistic supporting elements so that the technology 
can be tested in a simulated environment. The results of the tests form 
the basis for a preliminary cost benefit analysis that is used to 
objectively determine whether the technology should transition to a 
systems development and acquisition program.
    In Fiscal Year 2009, we will be completing our Intelligent Personal 
Radiation Locator, or IPRL, ATD with an expected transition to the 
HPRDS program in Fiscal Year 2010. The IPRL emerged from an end-user 
requirement for a next-generation personal radiation detection system 
similar to the radiation pagers often used by CBP, the Coast Guard, 
first responders, and law enforcement officials. IPRL will have 
sufficient energy resolution and sensitivity to reliably discriminate 
between naturally occurring radioactive material (or NORM), background, 
and potential threats, and will be used by law enforcement, first 
responder, counter-terrorism, the intelligence community, and others in 
routine activities and surveillance.
    Our Standoff Detection ATD will be completing critical design 
reviews and undergoing laboratory tests that will determine the 
technology's readiness to undergo performance tests. This ATD will 
allow DNDO to develop and evaluate key existing technologies such as 
coded aperture and Compton imaging that may dramatically improve 
sensitivity and directional accuracy. Our goal is to extend detection 
ranges against relevant nuclear and radiological sources to as much as 
100 meters, potentially providing the capability to locate and identify 
nuclear threat materials at greater distances for use in ground-based, 
airborne, and maritime platforms.
    Our Shielded Special Nuclear Materials (SNM) ATD is scheduled for 
preliminary design reviews in early FY 2009, with final system design 
review expected in late FY 2009. This ATD will develop and test 
advanced technology to definitively verify the presence of SNM despite 
cluttered environments or intentional countermeasures like shielding. 
As I mentioned previously, proof-of-concept results from Exploratory 
Research projects have been very promising. Furthermore, another 
embodiment of this technology may lead to a whole new capability for 
portable interrogation systems that will enable relocatable or human 
portable detection systems to automatically verify the presence of 
shielded SNM.
    Finally, in Fiscal Year 2009, we are beginning a new ATD on Remote 
Emplaced Sensors. This ATD will assess the performance capabilities of 
small, low-power, inexpensive detectors to detect and track the 
movement of SNM. The potential applications of this technology are 
significant, allowing us to increase the probability of detection in 
non-POE environments such as unattended borders, urban areas, and 
airports.
    The final component of our long-term research program provides a 
much needed emphasis in nuclear detection sciences. DNDO's Academic 
Research Initiative, or ARI, spurs the academic community to provide 
the nuclear detection experts of the future by funding universities to 
conduct R&D in areas relevant to the detection of nuclear and 
radiological material, as well as nuclear forensics. In addition, the 
program fosters potentially high-risk but high-payoff ideas that could 
lead to solutions that have not yet been considered. We initiated ARI 
in Fiscal Year 2007 and received 132 applications from universities 
around the United States. We awarded 22 projects, totaling $58 million 
in funding over the next five years. The program currently supports 
over 70 graduate students in nuclear and radiological research areas. 
However, ARI is considered a multi-disciplinary program with students 
working on ARI projects pursuing degrees in various related university 
departments, including physics, chemistry, chemical engineering, 
mechanical engineering, electrical engineering, materials science, and 
operations research. This year we are hosting our first annual grantee 
conference to showcase research and foster academic collaboration. In 
Fiscal Year 2008, follow-on grants will be made for the ARI projects 
begun in Fiscal Year 2007. In addition, we are soliciting for new 
proposals and anticipate adding 7-10 multi-year projects to the current 
22. In Fiscal Year 2009, follow-on grants will be made for previous ARI 
projects in addition to another separate round of new awards for ARI 
grants. It is our hope that DNDO efforts through ARI as well as our 
nuclear forensics programs, combined with the academic support efforts 
of other federal agencies like the Department of Energy, will help 
provide the nuclear scientists and engineers of the future.

Comprehensive Test and Evaluation

    With a strong research and development portfolio, DNDO also 
maintains a comprehensive test and evaluation program. All 
technologies, tactics, and processes developed and acquired in support 
of the DNDO mission are evaluated and demonstrated prior to full-scale 
deployment. In addition, technologies are independently assessed once 
deployed. Finally, DNDO adheres to strict systems engineering 
principles that ensure that integrated and balanced solutions are 
developed for the global nuclear detection architecture. This means 
that our tests not only evaluate the technical performance of systems, 
but also reflect and involve our customers and their needs. For 
example, Customs and Border Protection works hand-in-hand with DNDO as 
it evaluates ASP systems. Similarly, the Coast Guard as well as State 
and local users have been critical players in evaluating hand-held and 
backpack systems.
    In Fiscal Year 2009, test and evaluation activities will support 
ASP spiral development, acquisition decisions for the HPRDS program, 
selection of detection systems in support of maritime and international 
general aviation pilot programs, and a variety of ATD transitions. DNDO 
is orchestrating a new test program that will enable vendors to submit 
performance data on radiation detectors collected independently at 
laboratories accredited by the National Voluntary Laboratory 
Accreditation Program. We will evaluate this detector performance 
information to support the Authorized Equipment List from the Federal 
Emergency Management Agency (FEMA) Grant Programs Directorate as well 
as to support other federal acquisition programs. I am pleased to 
report that 2009 will be the beginning of nuclear operations at the 
Radiological and Nuclear Countermeasures Test and Evaluation Complex, 
or RNCTEC, in Nevada. This is a permanent DNDO facility that allows us 
to evaluate detection systems against SNM in realistic configurations.
    As you can see, our test and evaluation schedule is quite full and 
we are dedicating significant resources to these efforts. While it 
appears that our budget for test and evaluation declines slightly from 
Fiscal Year 2008, this is a reflection of concluding instrumentation 
activities for our Rail Test Center that will help DNDO develop 
solutions for on-dock rail screening. Overall, we are still dedicating 
significant financial resources, as well as personnel, to technology 
evaluation, with all test campaigns being supported by associated 
program funds.
    In addition to traditional test and evaluation activities, DNDO 
will continue to conduct red teaming and net assessment activities in 
Fiscal Year 2009.

Coordination of Effort

    Several federal agencies already engage in research and development 
related to radiological and nuclear detection. Therefore, the planning 
process for the DNDO research agenda is coordinated with partners, 
including the DOE National Nuclear Security Administration's 
Nonproliferation and Verification Research and Development Program (NA-
22), the Defense Threat Reduction Agency (DTRA), and the Office of the 
Director of National Intelligence (DNI). In addition, DNDO is home to 
the National Technical Nuclear Forensics Center that has a mission of 
being the U.S. Government ``system integrator'' for technical nuclear 
forensics. This office provides national-level planning, integration, 
assessment, and stewardship across the forensics spectrum and with all 
the relevant partners in the Departments of Defense, State, Energy, 
Justice, and the DNI.
    From its founding, DNDO supported the Office of Science and 
Technology Policy Domestic Nuclear Defense Research and Development 
(DND R&D) Roadmap Working Group's efforts to develop a coordinated, 
interagency R&D roadmap that would enhance the breadth of domestic 
nuclear defense efforts to ensure a secure nation. In addition, DNDO 
supports the National Nuclear Security Administration in reviewing 
foundational science proposals for advanced detectors and materials. 
Staff from both NA-22 and DNDO served on each others' proposal review 
panels, in part to ensure that duplication of funding is minimized. 
This interaction helped ensure that DNDO transformational R&D programs 
are well coordinated with those of NA-22 (which focused on foundational 
science for advanced detectors and materials), enabling the U.S. 
Government to best utilize the expertise of the National Labs. DNDO 
conducted similar proposal reviews with DTRA.
    As a key part of the interagency execution strategy, the DOD, DOE, 
DNI and DHS have jointly signed a Memorandum of Understanding (MOU) on 
the Coordination of National Nuclear Detection Research and Development 
Programs. This MOU specifically cites that all Parties will integrate 
their programs via the following mechanisms: (1) include representation 
of all Parties during R&D program reviews, (2) provide full and open 
access among all Parties to all aspects of ongoing R&D programs, (3) 
provide equal and open access to the findings from all R&D programs and 
maximize leverage were possible, (4) establish a standing body of 
qualified R&D representatives from each agency for program 
coordination, and (5) where possible, joint programs are encouraged.
    DNDO, as an interagency office, has full-time detailees from 
agencies such as DOE and DOD. These individuals have provided 
invaluable expertise in all aspects of the DNDO mission. Our detailees 
enable us to maintain an open and productive dialogue with our 
interagency partners so that we can avoid duplication of effort and 
make strides toward the complete implementation of the proposed 
architecture.
    Within the Department, DNDO works with the Science and Technology 
Directorate, coordinating efforts on a variety of levels--from the 
shared use of radiological and nuclear detection expertise at the 
Environmental Measurements Laboratory (EML), through developing an 
integrated Chemical, Biological, Radiological, and Nuclear (CBRN) Risk 
Assessment required by HSPD-18, Medical Countermeasures against Weapons 
of Mass Destruction.
    In fulfillment of a legislative requirement within the Security and 
Accountability For Every Port Act of 2006 (P.L. 109-347, Sec. 121 (e) 
), S&T and DNDO collaborated to write the Report on the feasibility of, 
and a strategy for, the development of equipment to detect shielded 
nuclear and radiological threat material and chemical and biological 
weapons of mass destruction, submitted in April 2007. This report 
outlines the DHS R&D strategies for robust capabilities to detect 
chemical, biological, and shielded radiological and nuclear threats. 
These strategies have been implemented and are being continually 
refined to meet the evolving challenges of homeland security.

Conclusion

    DNDO's Fiscal Year 2009 budget reflects a concerted effort to 
address the remaining vulnerabilities in our evolving detection 
architecture. The challenges that lie ahead require a coordinated 
effort on the behalf of the best scientific minds within the 
government, academia, and the private sector. We have made good 
progress, but much work remains to provide the Nation with a 
continuously improving capability to protect against a terrorist 
nuclear attack.
    This concludes my prepared statement. With the Committee's 
permission, I request my formal statement be submitted for the record. 
Chairman Wu, Ranking Member Gingrey, and Members of the Subcommittee, I 
thank you for your attention and will be happy to answer any questions 
that you may have.

                      Biography for Vayl S. Oxford
    Reporting directly to Secretary Chertoff, Mr. Vayl Oxford was 
appointed Director of the Domestic Nuclear Detection Office (DNDO) by 
the President in December 2006. Mr. Oxford is responsible for DNDO's 
jointly staffed office, which serves as the primary entity in the 
United States Government to improve the Nation's capability to detect 
and report unauthorized attempts to import, possess, store, develop, or 
transport nuclear or radiological material for use against the Nation, 
and to further enhance this capability over time.
    Prior to his appointment to the Department of Homeland Security 
(DHS), Mr. Oxford served as Director for Counter-proliferation (CP) on 
the White House National Security Council (NSC). His responsibilities 
included establishing national policy and priorities for CP, which have 
been codified into the National Strategy for Combating Weapons of Mass 
Destruction. Before assignment to the White House, Mr. Oxford was 
Deputy Director for Technology Development at the Defense Threat 
Reduction Agency, where he was principally involved in the Research and 
Development vision for future-year programs.
    From 1993 to 1998, Mr. Oxford worked for the Defense Nuclear Agency 
and was then Director for Counter-proliferation at the Defense Special 
Weapons Agency. He also served in the United States Air Force in 
aircraft and weapons development positions; and as Assistant Professor 
of Aeronautics at the United States Air Force Academy. Mr. Oxford is a 
graduate of the United States Military Academy and the Air Force 
Institute of Technology, and the recipient of numerous military awards. 
He received the Department of Defense Advanced Concept Technology 
Demonstration Technical Manager of the Year Award in 1997. He received 
the Meritorious Executive Presidential Rank Award in 2002.

    Chairman Wu. Thank you, Director Oxford. Next, Mr. Ryan.

 STATEMENT OF MR. GEORGE RYAN, DIRECTOR, TESTING & EVALUATION 
  AND STANDARDS DIVISION, SCIENCE AND TECHNOLOGY DIRECTORATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Ryan. Good morning, Chairman Wu and Ranking Member 
Gingrey, and other distinguished Members of the Committee. I am 
George Ryan. I am the Director of Testing, Evaluation, and 
Standards under Under Secretary Cohen, and I am honored to 
appear before you today to discuss DHS tests and evaluation.
    The DHS S&T Testing, Evaluation, and Standards Division is 
working closely with the DHS Under Secretary for Management, as 
well as all DHS components, to develop and implement a robust 
test and evaluation policy for all of DHS, that will be fully 
integrated into the Department's acquisition policy.
    The T&E policy that is being developed will require user 
components to participate in creating, reviewing, and signing 
the test and evaluation master plan. The primary purpose of the 
Test and Evaluation Master Plan (TEMP) is to describe the 
necessary developmental test and evaluation and operational 
test and evaluation that needs to be conducted in order to 
determine the system, technical performance, operational 
capabilities and limitations.
    The TEMP is an integrated and agreed-upon plan to ensure 
that the right tests are conducted, and that products are 
meeting the user requirements. DHS ensures independent 
operational test teams are involved early in the project 
development to ensure that operational shortcomings are 
identified and corrected as early as possible during 
development. The test results will be critical in ensuring that 
DHS products meet the necessary milestones to continue 
development or deployment.
    The DHS components, working within the DHS capstone IPT 
process, ensure that the user needs are addressed in research, 
as well as the test and evaluation. End user needs are 
incorporated in the planning and design of the tests. All tests 
will be performed to components' requirements or DHS adopted 
standards. Reports of efficacy, safety, and suitability are 
assessed against the criteria, which are developed with 
component input.
    The Testing, Evaluation, and Standards Division is also 
developing an accredited and recognized test capability, with 
the goal of testing all products in an accredited and 
recognized facility. The accreditation and recognition process 
is under development, and facilities are currently being 
identified that are capable of conducting different aspects of 
the testing process.
    The Testing, Evaluation, and Standards Division has an 
effort underway to ensure that once testing is completed, both 
components and first responders have access to product 
performance evaluations, as well as their limitations and 
capabilities. The T&E results will be placed on the Responder 
Knowledge Base, which is an online system that is funded and 
managed by FEMA.
    And I wait for any questions you may have. That is the 
conclusion of my remarks.
    Chairman Wu. Thank you very much. We have just been called 
for two votes, and it is my view that perhaps taking a break at 
this point, and coming back to the questions, may be the better 
course of action for the Committee.
    Then, we will temporarily suspend the hearing, and we will 
reconvene after these two Floor votes. Thank you very much.
    [Whereupon, at 10:41 a.m., the Subcommittee recessed, to 
reconvene at 11:20 a.m., the same day.]
    [Recess.]

                               Discussion

    Chairman Wu. I want to thank everyone for dealing with 
these Floor votes. That just kind of--they are like ducks. They 
fly when they want to, and they just kind of come and go.
    We are in our period of questions now, and Members will 
have five minutes to ask questions, and the Chair recognizes 
himself for the opening five-minute period.
    Under Secretary Cohen and Director Oxford, at our hearing a 
year ago, one of the concerns that I expressed, and I was 
hoping that you all would make some substantial progress on 
this, was having a defensible way of developing priorities for 
your research.
    And I want to return to that subject, to inquire about how 
you currently determine which research areas become funding 
priorities, because in this Fiscal Year, or the proposed fiscal 
year 2009, biological and nuclear research receive a lot of 
funding, have high priority, over other important areas, such 
as explosives, which have been a commonly used device in 
terrorism, over cyber security, and there are uncorroborated 
reports of penetrations of both government and private sector 
computers, and other infrastructure issues.
    What we discussed a year ago was whether there should be a 
system of formal risk analysis, informal risk analysis, or 
other methodologies, to determine research priorities. And I 
would like to know whether you have undergone those processes 
to set your budget priorities, because there are other 
uncorroborated reports that the Vice President cares about some 
of these things, and not about others.
    So, I would like to know if you are performing risk 
analyses over our society, at economic damage, human threats, 
or whether it is a bolt out of the blue coming from the White 
House or the Vice President's office, that is setting these 
research priorities.
    Mr. Cohen. Well, Chairman, first of all, I think it is a 
very wise concern on your part and the Committee's part, and I 
did hear you, and I did take action. It is not a bolt out of 
the blue. As I came on-board, as you know, in the summer of 
2006, I reviewed what had been done since the standup of the 
Department of Homeland Security.
    It appeared to me that in the research area, about one 
third of the budget, about $500 million, was going to nuclear/
radiological, about one third was going to chem/bio, and about 
one third was going to everything else. And I don't know what 
the basis for that was, but clearly, the Administration, the 
Congress, and the appropriators had, at some point, over a 
couple of years, agreed to that.
    Secretary Chertoff feels very strongly, and he has 
testified to this, about risk informed decision-making, that 
should generate grants, which are not S&T, but also, everything 
else we do, because I think it was Goethe who said, ``If you 
defend against everything, you defend against nothing.'' And 
so, your question is absolutely on the mark.
    Where we are today, and Vayl will talk about his area, 
radiological and nuclear, and his funding, as you know, I have 
been bringing down the chem/bio area, as we have been 
delivering product, the BioWatch II, and now, we are getting 
ready to prototype BioWatch III, et cetera, and we have had a 
chance to analyze the other threats, cyber and explosives, and 
a wide variety of others.
    Our Infrastructure Protection Directorate has 17 critical 
infrastructure protection areas, and they have done the 
detailed analysis, the societal, and the economic impact of low 
probability of occurrence but high consequence effects, many of 
which, regrettably, are on the West Coast. And so, it is a work 
in progress.
    Following our discussions last year, and in keeping with 
the Congress's desires and Secretary Chertoff's focus on risk 
informed decision-making, and I would like to enter this for 
the record if I may, I sent a letter to Dr. Cicerone, and asked 
for his help in four areas. This letter addresses two. One is 
to help us determine the science of risk informed decision-
making. Just like after World War II, the Battle of the 
Atlantic, with strategic bombing, we developed the science of 
operations research, operations analysis, and it is quite 
mature today, and we are able to use it in a very good way. We 
have actuarial tables today for just about everything. It sets 
our insurance publicly and privately, but it is really history 
and probabilistically based.
    What we don't have is a good understanding of when bad 
people want to intentionally do bad things to perfectly good 
societies, bridges, railroads, border systems, et cetera. Now, 
in my area, and I salute Dr. John Vitko in our chem/bio group, 
they took this on with looking at 30 major threats, and I am 
not going to give all of them, but you know, it is anthrax and 
botulism, et cetera, and they took the probability of 
occurrence, this predates this letter, 0 to 1, very small 
number, and they took the consequence of occurrence of a 
pandemic, millions dead, billions lost, you multiply them 
together, you get a number. That is the beauty of math. But 
when we stretched that number across all 30 of these pathogens, 
we found that the variability was plus or minus an order of 
magnitude. What does that mean? It means the answer that we 
got, if it was 10, if the number was 10, the real answer was 1 
to 100. That is a span that is very difficult for us to decide 
how to invest.
    But the surprise to me, and that is why I went to Dr. 
Cicerone, is while each one of the 30 answers had that 
variability, we saw clusters. We actually saw a high risk 
cluster, a medium risk, and a low risk cluster. So, this is a 
work in progress. It is not going to be solved this year. It 
may not be solved this decade, but I think working together, 
these are not bolts out of the blue. These are not bolts out of 
the blue, and I probably could make a joke about the Vice 
President, but I am a member of the Administration, so I won't.
    But I did want to share this with you. This is Jay Cohen's 
view of life, and then, I will end. It is the likelihood of 
occurrence versus the consequence of occurrence, lower, higher, 
lower, higher. You will notice I have nuclear off the page on 
the right. The consequence of occurrence would be devastating, 
but today, you have to either steal or buy a bomb today, don't 
know how long that will last, to make that happen.
    But you will notice cyber, the probability of occurrence 
and the consequence is the highest, because it is happening to 
you and I right now. Someone is trying to steal our identity, 
as well as all the other issues that are going on 
internationally. Now, you can agree or disagree about the 
position. It is PowerPoint, you can move them around, but this 
is where, with the help of the National Academies, we are 
trying to do that.
    And finally, as I look at my six divisions, and I look at 
my twelve capstone Integrated Product Teams, and where we 
should invest for the customer, I don't generate requirements. 
My customer does, and the Congress does, and the Administration 
does. I provide solution opportunities, and when I think that 
we are investing too much in chem/bio and not enough in cyber, 
I go to what we call the Technology Oversight Group. In the 
Department, that is the Deputy Secretary, the Under Secretary 
for Management, and the Under Secretary for National 
Preparedness, NPPD. They get to vote. I make proposals on how 
we should move money in the budget generation process, and the 
components then get to make their reclama, no, don't take from 
me, take from someone else. So, we have a formal process that 
now is a year old. We just went through the TOG, Technology 
Oversight Group review, we made adjustments for the financial 
year 2010 budget that I think are consistent with your 
concerns, and with that, I will end, and fail. I apologize if--
--
    Chairman Wu. My five minutes have expired, but Director 
Oxford, I would like to give you an opportunity to answer that 
question also.
    Under Secretary Cohen, perhaps off-line, between our 
staffs, we can drill down into the mechanisms that are actually 
used to connect the assessments with the budget priorities, 
because it is important for us to understand what it is that 
you are doing, and have some confidence in that, and I would 
very much like to have confidence in that.
    Director Oxford.
    Mr. Oxford. Thank you, Mr. Chairman.
    Again, using your term bolt out of the blue, this was not, 
it was, DNDO was actually created after almost two years of 
discussions within the executive branch. It started in the 
immediate aftermath of 9/11, when people started looking at 
other potential vulnerabilities and risks to the country. We 
tried to do this across the executive branch, in kind of 
uncoordinated ways, for a couple of years, to find out we were 
not making the progress necessary to help make this nation more 
secure against a nuclear or terrorist attack.
    So, the Interagency came together and decided we needed to 
put together the business model, the office model that we have 
with DNDO, to put together a concerted effort against nuclear 
attack. We were asked to put together what we call the Global 
Nuclear Detection and Reporting Architecture as part of that.
    That effort takes stock of all of the efforts across the 
U.S. Government dealing with the nuclear threat. It takes into 
account what Department of Energy, Department of State, 
Department of Defense are doing overseas, whether that adds to 
our overall layered security or not, and then looks at the 
domestic dimension to figure out what we need to do 
domestically to enhance our overall security.
    So, from that, we do not spend a lot of time on actually 
specifying details of the threat. We assume somebody, in time, 
will want to do something harmful to this country from a 
radiological or nuclear perspective, and we can't wait for the 
precision of the intelligence community to say it is there 
before we take preventative action. What we also reflected upon 
is most of the efforts in the country were based on response 
versus prevention, and as Under Secretary Cohen said, if you 
put your stock in responding to a catastrophic event, as 
opposed to preventing it, we thought we had the math wrong. Not 
that we shouldn't be doing emergency response actions, but we 
need to be putting our stock, in this case because of the 
catastrophic nature, in the prevention piece.
    So, as we looked at prevention, we started to look at the 
critical aspects and vulnerabilities, and as we worked this, 
along with the Congress, there was immediate priority put into 
border security, in terms of trying to keep things from 
transiting across our borders, into our land borders, our 
seaports. And in my opening statement, I mentioned we have made 
tremendous progress now, and we are scanning 96 percent of the 
cargo coming into this country.
    The rest of our architectural analysis is starting to 
identify other potential vulnerabilities that need to be 
addressed. I also mentioned that we are now scanning 
international general aviation airplanes coming into this 
country, because that is a very quick way, fast way, using 
Under Secretary Cohen's term, if somebody can get their hands 
on an existing nuclear weapon, within hours, you can get it 
into this country.
    So, what we are doing is addressing those other critical 
vulnerabilities beyond our port security, beyond our land 
borders, to address those. That, then, helps drive the research 
agenda that we have put together, to make sure that we can have 
the capabilities in place to enhance our ability to detect and 
interdict along those various threat pathways.
    Chairman Wu. Thank you very much. The gentleman from 
Georgia.
    Mr. Gingrey. Mr. Chairman, thank you. Before I ask my 
question, I want to request that the letter that Admiral Cohen 
referenced, that he wrote to the National Academies, be put in 
the record as part of the permanent record.
    Chairman Wu. Without objection, so ordered.
    [The information appears in Appendix 2: Additional Material 
for the Record.]
    Mr. Gingrey. Director Oxford, your testimony today 
described the need to address gaps in the current architecture, 
and develop ``solutions that can effectively counter a 
determined and mobile adversary who will seek routes to bypass 
existing security measures.'' That was your quote. Yet, in the 
fiscal year 2009 request, that includes a $60 million increase 
for acquisition of the Advanced Spectroscopic Portal, which is, 
as I understand, a fixed location system, meant to upgrade our 
current capabilities at our ports of entry.
    But meanwhile, research and development funding is kept 
relatively flat from the prior years, $334 million in 2009, 
compared to $324 million in 2008, so a meager $10 million 
increase, a very small percentage, although $10 million is a 
lot of money.
    So, the question is why is the upgrade of current 
generation portal monitors more important than the development 
of new technologies to close the current gaps in our detection 
system? Are we, in effect, putting locks on the front door, but 
leaving all of the windows wide open?
    Mr. Oxford. Thank you for that question. It is interesting, 
that is exactly the same kind of perspective that the Secretary 
has on this, is that we need to make sure that we are looking 
not only at all the other windows, but we look at the back door 
and everything. We think we have got the balance right. And I 
can't go into all the classified details of why the upgrades 
are necessary, but I will tell you that we know some of the 
current systems are vulnerable to critical aspects of the 
threat, and we will be glad to share with you that off-line, in 
terms of what those threats are.
    Our test programs have shown the vulnerabilities in the 
current deployment, the systems that are deployed out there, 
and it is a critical aspect of our vulnerability that we need 
to address. And the new systems will allow us to do that. 
Secondly, it allows our Customs and Border Protection agents to 
be a lot more effective.
    Just to give you some information from LA/Long Beach, the 
biggest port in the country, right now, with the current 
systems, they are getting 400 to 500 nuclear alarms per day. 
They have assigned almost 200 customs officers to deal with 
that phenomenon at LA/Long Beach alone. These new systems have 
the promise to bring those down to 20 to 25 serious alarms per 
day, therefore, allowing CBP to address a wider variety of the 
mission space that they have been assigned.
    Mr. Gingrey. Yes, sir, and what percentage of those alarms 
are false alarms?
    Mr. Oxford. Right now, all of them, and so, what we need to 
be able to do is distinguish that, reduce the operational 
workload, but also, enhance our overall ability to identify the 
threat, so that they can pay attention to the serious----
    Mr. Gingrey. Would you repeat that, the number per day that 
are all false alarms?
    Mr. Oxford. Yes, right now, 400 to 500 nuclear alarms per 
day at LA/Long Beach.
    Mr. Gingrey. Wow.
    Mr. Oxford. And we get roughly 200,000, at our seaports 
alone, on an annual basis, 200,000 alarms that then have to go 
through the full adjudication process to make sure that there 
is not a threat contained in that primary alarm. We get another 
40,000 on our land borders, and that is based on 2006 
deployment numbers, and our deployment of systems have gone up 
since then.
    Mr. Gingrey. Describe the full adjudication process.
    Mr. Oxford. Sure. Let me use the seaport as an example. As 
the ships are unloaded, and the cargo containers are put on 
trucks, they go through primary screening, where we have a 
radiation portal monitor that has the capability to detect, but 
not identify what is in the cargo. So, if it alarms, it merely 
says we have the presence of radiation. That vehicle, then, is 
pulled over into what we call secondary screening. It goes 
through another radiation portal monitor, to make sure that 
that alarm was valid in primary. At that time, if it alarms, 
the customs officers go through a second hand-held screening 
process, where they take a radioisotope identification system, 
a hand-held detector, they screen the vehicle again. This 
device has some capability, although we understand its 
limitations, to be able to take a spectra and identify what the 
nature of that radiation is, and whether it is something of 
consequence, or something that is totally benign that is 
normally in the environment.
    There is a list of critical isotopes that then have to go 
into another process, where that spectra sent to Laboratories & 
Scientific Services within CBP to do further analysis of that 
spectra. This can take upwards of hours. So, now, when you have 
got a situation like LA/Long Beach, with 400 or 500 of these a 
day that may go through that process, you see there is a 
possibility, not only to, based on the limitations of these 
systems, to miss the threat, but also, then, to slow down the 
conveyances through the ports.
    So, there is a combination of purposes, as to why we need 
to do the upgrades that you asked for. Meanwhile, a lot of our 
R&D and our transformational work is addressing the other basis 
of the vulnerabilities that I talked about that are in the 
architecture right now.
    Mr. Gingrey. My time has expired, and I yield back.
    Chairman Wu. Thank you very much. Ms. Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chairman, and thank all 
of you for being with us today.
    Let me start off my comments by saying that although there 
has been much frustration by Members of this committee and the 
public, I think, as to the things we have not been able to 
accomplish, we would be neglect, though, in not acknowledging 
the fact that, since 2001, there has not been an attack, you 
know, on our soil, and so, the work that you have been able to 
do to provide homeland security for us is obviously there, and 
so, for that, we should all say thank you. So, I wanted to 
preface my comments by acknowledging that fact.
    A few quick comments, and if you could answer them quickly, 
because the rules here is a red light comes on, and we are only 
given five minutes, and since I am a freshman, they hold me to 
it, so we will, if you could help me with it, I would 
appreciate it.
    Number one, Mr. Cohen, Under Secretary Cohen, in your 
testimony, it mentioned the database of unmet human needs after 
Hurricane Katrina, and when I asked staff here, did we have a 
copy of what that database was, no one had it. Could you 
provide it to this committee in the future?
    Mr. Cohen. Absolutely.
    Ms. Richardson. Okay. My--that was great, we are doing good 
so far.
    Second question, Under Secretary, you also mentioned in 
your testimony that, with the University Scholars and Fellows 
Program, you now have instituted a policy to require one year 
of service in a homeland security-related field. I would 
respectfully request that you reconsider that, and let me tell 
you the reasons why.
    I represent an area just adjacent to the ports, so 45 
percent of the entire Nation's cargo does go through my 
district. However, I would tell you, though, unfortunately, in 
my community, we are not always abreast of some of these 
programs and job opportunities and internships, et cetera, and 
I will give you an example. I recently participated in two 
Congressional delegations, and I didn't see anyone who looked 
like me, who was there working on behalf of the Foreign 
Services and the folks who were supporting us.
    And so, to leave out young people who clearly, I think this 
is going to be one of the key areas where we can have gainful 
employment for our young people, I really see this as a, really 
as a deterrent, and something that could hinder other youth an 
opportunity to participate.
    So, I would respectfully request that you reconsider this 
requirement and take it away.
    Mr. Cohen. Well, Congresswoman, first of all, thank you for 
your service as a teacher. I don't know if it was harder with 
the A.D.D. students in the school, or in the halls of Congress, 
but I will leave that up to you.
    Let me tell you that you and I are in absolute full 
agreement on the face of America, and where we need to go, and 
as you are aware, last week, after a year's process, we went 
ahead, and we announced the five new University Centers of 
Excellence with co-leads for research and education, and I am 
pleased to tell you, of the 11 schools announced, five were 
minority serving institutions, three HCBUs, one Hispanic-
serving institution, and one Native Hawaiian.
    At the end of the day, I want, and it is not now, but it 
will be, our University Fellowship and Scholarship Program to 
reflect the face of America. That is what I did at the Office 
of Naval Research. You do that by putting out a very broad net. 
Having said that, as a taxpayer, and I will end, because I 
respect your time, at the end of the day, the Fellowship and 
Scholarship Program I inherited was not aligned to our Centers 
of Excellence, and was not meeting the requirements of the 
enabling legislation, which has me develop the workforce for 
Homeland Security, and oh, by the way, STEM, science, 
technology, engineering, and math, so important to our 
economies, including Long Beach and California.
    And so, the payback and the internships, et cetera, are a 
work in progress. I have taken no hard decision there, but I am 
not a giveaway organization, as I read the enabling 
legislation, and if you would like me to do for the country 
with the precious taxpayer dollars. But I am committed to equal 
opportunity and to the diversity that is critical for the 
future of this nation, and I believe I have a track record 
there.
    Ms. Richardson. So, are you saying you will remove this 
requirement?
    Mr. Cohen. I will consider it, and I am glad to discuss 
with you or your staff how I achieve the goals mandated in the 
enabling legislation, for the Centers of Excellence and for 
STEM and Homeland Security workforce development through 
student programs.
    Ms. Richardson. I didn't want to use my time to go to this 
extent, but maybe, it appears that I need to do so.
    I am a student who was an athlete, and I had a chance to 
get into UC Santa Barbara based upon an EEOP program, and for 
those of you who don't know what that means, that is an equal 
opportunity program. And I would put my record against anybody 
in this room. And so, it is critical, I cannot stress to you 
enough how important this issue is to me and to other Members 
in this Congress. We do not have, all children do not have the 
same opportunities. All children do not have the same access to 
AP classes. All children do not have the same access to various 
languages. All children do not have the same access to the 
precursors, the prerequisites that might be required as they 
look for this other employment.
    So, I would say to you, Mr. Under Secretary, until we can 
have that equalizing force to discriminate, and I would use the 
term, to discriminate against giving young people an 
opportunity to appropriately qualify, is a very serious issue 
for me.
    So, I would like to continue this discussion, if it is 
going to be needed, but my request, and if necessary, I will 
bring it before the TriCaucus, my request would be that this 
requirement would be removed.
    Mr. Cohen. And if the Chairman would just indulge me, I am 
a product of the New York City school system. I did not come 
from rich folks. I went to the Naval Academy, and I was 
required to pay back five years in service, which I did with 
great honor. It dragged on to be 42 years.
    There are many programs in the Federal Government where we 
require, post-graduation, a payback for the taxpayers' 
investment. I may be misunderstanding you, and I don't want to 
take valuable time; I am glad to meet with you, and if I am 
misunderstanding you, there is no prequalification. What we are 
asking kids to do is to be involved with our DOE and National 
Labs, as rising juniors and rising seniors, so we can expose 
them to what we are doing, encourage them to come into that 
workforce, which desperately needs revitalization.
    Ms. Richardson. So, this is a post-requirement, not a pre-
requirement.
    Mr. Cohen. Oh, I wouldn't have taken all this time. 
Absolutely. There are no prerequisites. The prerequisite is 
merit, just as you indicated, but I am not hard over yet on one 
year, maybe the right answer is two years. Maybe the right 
answer is 0 years, so long as we have a robust rising junior, 
rising senior summer intern program that I pay for.
    But what I inherited was a system that I couldn't look you 
in the eye and justify the expenditure for payback. So, I 
apologize, Congresswoman. I think there is no light between the 
two of us. There is no pre-criteria. I apologize. I am----
    Ms. Richardson. And I appreciate that clarification, and 
that is perfect with me. Mr. Chair, could I just close with one 
last comment?
    Chairman Wu. Please.
    Ms. Richardson. Thank you. You are very kind. I appreciate 
it. Mr. Under Secretary, it is my understanding that in terms 
of staffing, we have this whole idea of the one face at the 
border, and that is becoming quite an issue, because the one 
face does not necessarily have the expertise, in particular, 
with the agricultural requirements.
    And so, if not at this meeting, because I have extended my 
time, and as a freshman, my red light is on, so I have got to 
stop. So, I would just ask that you could prepare, for this 
committee, a better understanding of where we are. Because I am 
hearing that there are concerns in the field with that issue, 
that the expertise is not there, particularly on the 
agricultural end, and given the fact that I do represent the 
largest area in the Nation, it is a great concern of us.
    Thank you very much.
    Chairman Wu. I thank the gentlewoman. If you were a 20 year 
veteran, the red light would still be on, but I really 
appreciate the gentlewoman's passionate pursuit of the issues, 
and I thank her for her background of service, and the Admiral, 
Vice Admiral, we are all a product of our backgrounds, and it 
is a strength of this nation that we bring these different 
perspectives, to make sure that our society can capture all the 
human talent which we can bring to bear for these very 
challenging times.
    And the Chairman, recognizing himself, just for a moment 
touching upon an old issue. Director Oxford, your eloquent 
answer was, perhaps, a lengthier way of saying we have a very 
deep risk, and we haven't done the risk analysis, but because 
it is such a great risk, we are allocating the resources that 
we feel we need to, to address that risk.
    And perhaps we, at a staff level, we need to circle back 
around to see whether that is the right thing to do, because as 
serious as that risk is, resources that are allocated there are 
not allocated, say, to Nunn-Lugar, which is a different 
solution to the problems that you are trying to address, or 
resources addressed there are not able to be redeployed to 
other, perhaps equally significant hazards to our society, and 
to human life.
    I would like to shift to a different ground, which is the 
Integrated Product Teams, or IPTs, that the Under Secretary has 
implemented with some success, and this is a question directed, 
really, at all three of our witnesses here.
    My understanding is that there has been success in bringing 
the IPTs together, and addressing some of the concerns that 
different parts of DHS has about the technologies that we are 
working on, but you know, I am concerned about whether the IPT 
process reaches out far enough into the testing process, into 
the end-user community, so that their concerns about validation 
first, next, using these products, in an operational 
environment, and maintaining them in an operational 
environment, is reflected in the IPT process, when we are 
setting research and development goals.
    Mr. Cohen. I will give you a very succinct answer. I do 
science and technology, and that is the principle of what I do. 
In law, I am also, it is not an S&T responsibility, it is a 
separate responsibility, the Test and Evaluation Executive for 
the Department of Homeland Security, a job I am very 
comfortable with, and George Ryan and I had that same job for 
six years in the Department of the Navy, much larger budget, 
and I characterized test evaluation as we are not going to buy 
no junk, and it must be independent, and you understand that.
    In S&T, I get to take risk. In order to keep--with 
millions--hopefully intelligent risk--to keep from putting 
billions in acquisition at risk, because acquisition is, and 
should be, risk-averse, whether it is in industry or it is in 
government. And so, the Integrated Product Team has been a very 
good step forward to bring together the customer, Coast Guard, 
Border Protection, et cetera, with their capability gaps. They 
don't tell me what technology to invest in. They tell me what 
their high priority mission needs are. I offer them solutions, 
universities, laboratories, United States, international, or if 
they have a preferred solution from a provider, just give it to 
me. We do a technology readiness assessment, because I am not 
going to buy no junk, and if it measures up, I am glad to 
resource it.
    Chairman Wu. Well, Mr. Under Secretary, the groups that you 
listed are part of DHS.
    Mr. Cohen. Right.
    Chairman Wu. And the question is whether you are reaching 
out sufficiently, say, to the Fire Department of Peoria.
    Mr. Cohen. Sure. And the short answer is, I need to do a 
better job, because the enabling legislation said the 22 
components of my customers, but also, the first responders. 
State, tribal, local, et cetera. In the Integrated Product 
Team, you will see on the bottom of each of the diamonds is the 
user. The user may be an agent. The user may be a first 
responder. I just asked Rob to pass to you. The challenge that 
I have, unlike DOD, where I just had Marines and sailors. I now 
have the customer and the customer of the customer, and so, we 
have different transition paths. They go to first responders, 
go to agents, et cetera.
    It was my intent, in August of '06, as I put in place the 
organization which you all, very kindly, rapidly approved, to 
have in my interagency and international liaison, so I didn't 
duplicate what any other component of government was doing, and 
brought international partners, to also have first responder 
liaison. And because I have to deal with the Sheriff of 
Mayberry, and I have to deal with the New York City Police 
Department, I can't handle that scale, but I can deal with the 
Fraternal Order of Police Chiefs, and the Fire Chiefs. They 
understand the scale issues.
    And so, I wanted to have that capability. I was advised 
that because the Department had State and local, because the 
Department had an outreach, and because the first responders 
had indicated they felt there were too many entry points for 
DHS, and it was confusing, that I needed to deal internally to 
get those inputs. I think I may have taken that too far, and 
that is why, and it was adjacent to Congresswoman Richardson's 
district in January, at the invitation of California, we had a 
first responder outreach conference. Several hundred first 
responders were there, the Mayor of Los Angeles participated, 
et cetera, to do exactly what you said. But I have got to 
formalize how I bring them to the table, not just in the 
requirements generation and satisfaction, but also with George, 
as we do in the Navy, we don't allow contractors to load the 
missiles onto the plane. We bring in fleet sailors, because at 
the end of the day, they are going to be loading the plane, and 
we will figure out how to do that better, and we will do that 
this year, sir.
    Chairman Wu. I have gone past my five minutes. But Mr. 
Ryan, if you could address some of the testing components of 
this, and Mr. Oxford, if you have anything to add. Have you 
pressed the microphone button?
    Mr. Ryan. I am sorry. Excuse me. Let me address--I am only 
using you for foresight. You know, the wisdom of Congress, when 
they created enabling legislation that put T&E in S&T, and 
then, the foresight of Under Secretary Cohen, to put standards 
and T&E together, I think is very good, because the T&E now, 
and I was with the operational test leaders from the government 
and industry last week, and that was an issue in DOD, is 
because of the interest in accelerating the cycle time of 
getting things deployed, they feel that they need to be more 
involved in the laboratory end of it, which they are currently 
not in DOD.
    And here we are, we are right where they want to be, so to 
speak, because we can see what the requirements are early on, 
we can determine that the requirements are testable. And then, 
with the IPT, and with standards, we can support the standards. 
And I will give you a good example that I think touches on many 
things that you had in your questions. It is, I was in eastern 
Kentucky, I went to both Somerset to see the NIMH Center, and 
then, I was in eastern Kentucky, and they were doing UAVs, and 
I got into a discussion about standards of UAVs, and I came 
back and said, the mini micro UAVs that first responders want 
to have, and there were actually some policemen at eastern 
Kentucky when they were flying these, they, if you looked at 
it, there were no standards. So, what we did is, a combination 
of the Standards Group, and Bert Coursey is here as the 
Department's Standards Executive, we got with the, in this 
case, we got with the Navy, the work on test protocols, to 
support the standards once they get development.
    And we also have NIJ involved, and actually, at the NIJ 
meeting we had the other day, there were people from the Texas 
Association of Sheriffs. So, they are all working together to 
develop these standards, and then, in test protocols, to 
support that. From the IPT process, we are involved in the IPT 
process, so early on, we are meeting with, even though it may 
be internal, we are meeting with the users and the developers 
again, to understand the technology, to get a better feel for 
what instruments and test capability are needed, actually prior 
to the testing, so we can budget for it, and make sure it is 
there, when you get to the point of doing the testing.
    So, I think we are making a lot of progress in the right 
direction. If that helps.
    Mr. Oxford. Mr. Chairman, I will be very brief. I will try 
to cover the two facets of your question.
    First of all, our customer base is federal, State, and 
local. We have a little bit different model than the Under 
Secretary does. We have embedded in DNDO representatives from 
TSA, CBP, Coast Guard, so we have, within the cross-section of 
our DHS customer base, direct liaisons working with us every 
day, so we have a pretty good conduit of getting capability to 
our federal partners.
    From the outset of DNDO, I established a State and Local 
Affairs Office, with the entire intent of broadening the 
awareness of the radiological and nuclear threat at the State 
and local level. We have conducted now seven workshops; we will 
have our eighth workshop in April, where we bring in State and 
local representatives from across the country. In some cases, 
we have had 30 states represented as part of that interchange. 
We are enhancing their awareness. We are talking to them about 
how they can enhance their own security within their 
metropolitan areas and their State environments. Then we work 
with them on the grant process, as appropriate, so they can get 
capabilities, and then, provide the requisite training that 
goes with that capability.
    On the test side--do you have a question? On the test side, 
when I inherited this responsibility, there was almost no test 
capability in the radiological nuclear detection area, so we 
have kind of grown that from whole cloth. Some of the 
criticisms that you have seen in the press and elsewhere 
suggests there needs to be more independence in the tail end of 
our process, where we are dealing with the operational side. 
What the Under Secretary and I have agreed to do, along with 
the Deputy Secretary, is Mr. Ryan will now become part of our 
independent operational test entity, where he will review test 
plans; he will look at the adequacy of those test plans, and 
ultimately, on the operational tests and evaluation piece, he 
will be signing off on the test reports. So, we are negotiating 
an MOU right now that should be done next week that will put 
that into perspective.
    Chairman Wu. Well, Mr. Oxford, even more briefly, is that 
process working around New York City, and what you are trying 
to do there?
    Mr. Oxford. We have seen tremendous capability grow from 
our engagement in New York City. What we have seen is the 
secondary benefits of 22 different jurisdictions working 
together just in the radiological and nuclear defense area. 
That is starting to expand, for example, New Year's Eve, when--
--
    Chairman Wu. Let us continue to follow and track that 
process.
    Mr. Oxford. Absolutely.
    Chairman Wu. Let me recognize the gentleman from Georgia.
    Mr. Cohen. And Chairman, if I may, as you remember, the 
Environmental Measurements Laboratory of New York was a big 
concern last year, and Vayl and I went up there, and we have 
leveraged that incredible intellectual capital, who have 
expertise in nuclear radiological, to work with DNDO. In fact, 
Vayl is paying for eight to ten of those people in direct 
support in the tri-state area, for what he is doing in test and 
evaluation.
    Chairman Wu. Thank you very much. And the gentleman from 
Georgia.
    Mr. Gingrey. Mr. Chairman, thank you. I have one last 
question, and Mr. Oxford, you don't have to take the full five 
minutes. I am already two minutes late for my next meeting.
    In your testimony, you described your support in 
developing, well, actually, it was the Under Secretary's 
testimony, but developing a coordinated, interagency, R&D 
roadmap that would enhance the breadth of domestic nuclear 
defense efforts through the Office of Science and Technology 
Policy's Domestic Nuclear Defense R&D Group. What is your 
expectation for the completion of this roadmap?
    Mr. Oxford. As far as I know, Dr. Marburger has now 
approved that roadmap. I don't know if OMB has endorsed it for 
follow-on budget deliberations, but the roadmapping activity is 
complete.
    Mr. Gingrey. Admiral Cohen.
    Mr. Cohen. Yes, sir. As you know, we were required in the 
enabling legislation to come up with a coordination document. 
At that time, DNDO and S&T were one unit. I delivered to the 
Congress, at the end of last calendar year, something that had 
been in progress for a long time. It is that coordination, 
absent the nuclear roadmap, and Dr. Marburger now, he is doing 
the integration to put it into one roadmap. My challenge there 
was the enabling legislation wanted me to have a little bit 
more leverage over the other departments of the government, and 
they were not as enthusiastic about letting me do that.
    So, it is truly a coordination document, but at least we 
have laid out what their capabilities are, and what the 
Nation's needs are, and now, we will use leadership by 
embarrassment to get the desired result.
    Mr. Gingrey. Right. Thank you, and I will yield back my 
time. Thank you both.
    Chairman Wu. Dr. Gingrey has expressed that he has no 
objection to me asking one more tranche of questions, even with 
no Republican supervision in the room.
    And first, I just want to touch upon the issue that each of 
you all, whether it is in the testing arena, or research in 
certain specific areas, whether it is building safety or other 
topics, or nuclear detection, there is a lot of expertise over 
at NIST, the National Institute of Standards and Technology, 
and I think that I will ask the staff off-line to inquire as to 
each of your operations, how much interaction, how much 
cooperation, there is between your efforts and the expertise 
that is available over at NIST.
    The last question that I want to focus on in this hearing 
is that Mr. Under Secretary, you have done a commendable job of 
raising the amount of basic research, to invest about 20 
percent of research funding in basic research. I just want to 
make sure that for budgetary purposes, that the definition of 
what is basic research has not been shifted in order to reach 
that 20 percent mark. Is this the same definition that has been 
used in prior fiscal years, and if there has been a shift in 
definition, what are the differences between the current 
definition and the past definition?
    Mr. Cohen. One of the things I have learned in this town, 
Mr. Chairman, is to always tell the truth. I do it for two 
reasons. One, it tends to work, and at my age, I don't have to 
remember what I said. So, there is no bait and switch. I have 
not redefined, and I am not using----
    Chairman Wu. That is a problem, that others tend to have 
long memories, too.
    Mr. Cohen. Yes, sir. And paybacks are heck. But the facts 
of life are, and I say this as a citizen, today, we don't have 
Bell Labs, as we knew them. We don't have Xerox PARC. It is 
only the Federal Government, and its deep pockets and tenacity, 
that can make the sustained investment in basic research that 
has given us the technology, and this incredible economy that 
we enjoy, whether it is the Bayh-Dole Act, or so many other 
things the Federal Government has done.
    And so, in the Navy, when I was asked to make sacrifices in 
the budget, I said take whatever you want in transition, but 
don't take a penny of the basic research. We did not have a 
robust basic research portfolio when I got here. We have 
established that. It is focused on universities. It is focused 
on laboratories. I define it as eight years or more. We have a 
chart right here, because I believed you were going to ask 
this, Mr. Chairman, which shows by division, the purple, by 
division, shows the percent of their research dollars that go 
into basic research.
    You can see in explosives, because I can't detect at range 
a suicide bomber or a suicide car today, we have got plenty on 
the output side, that is being used in Afghanistan and Iraq, 
but I have got to get the phenomenology, photon packets. I 
don't know what the methodology is; I need a discovery, half 
you see, in explosives. Whereas in borders maritime, it is 
small. Command and control, I can leverage everyone else in 
government, so I don't want to double spend those moneys. I am 
using the definition from OMB to a lot of definitions at the 
end of the day, but it is university, laboratory focused, 
unfettered, and long-term.
    And I am glad to work with the Committee. The Committee 
staff has been involved in all of this process, and if I don't 
have it quite right, we will certainly make adjustments, but I 
think I have spoken honestly, sir.
    Chairman Wu. I want to thank all of the witnesses for their 
participation today. And I want to assure everyone that at a 
Member level, at a staff level, we want to continue to work 
with your agencies to assure that we are properly focused, 
spending the taxpayers' money wisely, and taking care of their 
long-term interests.
    I thank you for your participation, and the record will 
remain open for additional statements and questions for five 
days, and we will be sending additional written inquiries to 
each of you.
    Thank you very much, and with that, this hearing is 
adjourned.
    [Whereupon, at 12:13 p.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Jay M. Cohen, Under Secretary, Science and Technology 
        Directorate, Department of Homeland Security

Questions submitted by Chairman David Wu

Q1.  The Homeland Security Science and Technology Advisory Committee 
was recently reconvened to advise DHS S&T on research priorities. 
However, the format of the HSSTAC was changed for the most recent 
iteration of the Committee. Previously, HSSTAC had a broad focus and 
provided recommendations for research priorities across the many fields 
covered by DHS S&T, such as biosecurity, cyber security, and others. 
Now, HSSTAC zeros in on specific project recommendations in a 
particular field, currently focusing on improvised explosive devices 
(IEDs).

Q1a.  Why did the format of HSSTAC change?

A1a. The Homeland Security Science and Technology Advisory Committee 
(HSSTAC) mission remains in line with its intended purpose as stated in 
the Homeland Security Act of 2002, in that it makes recommendations 
with respect to the activities of the Under Secretary for Science and 
Technology, including identifying research areas of potential 
importance to the security of the Nation. Counter-IEDs is a priority 
for the Administration, DHS and the S&T Directorate. The Under 
Secretary for Science and Technology recognized the need to focus the 
breadth of experience of the HSSTAC to help ensure that the S&T 
Directorate focuses its work in the right areas. With the IED study 
completed (in February 2008), the HSSTAC is now conducting a 
comprehensive assessment of all S&T Directorate programs and options 
for technologies to support DHS's operational responsibilities in the 
cyber area.

Q1b.  Given that the Committee is composed of experts from a variety of 
fields, are you taking advantage of the members' expertise when you 
focus on fields that fall outside their backgrounds?

A1b. The membership of the HSSTAC includes experts in scientific as 
well as emergency response fields such as law enforcement, fire safety, 
emergency management, and health affairs. Nearly all of these experts 
have broad ranging and deep experience in Homeland Security activities, 
and the interaction between them consistently provides valuable 
insights in areas such as concepts of operation and organizational 
issues.

Q1c.  How does this format affect HSSTAC's ability to establish mission 
goals for the long-term?

A1c. Members representing the various academic disciplines have 
integrated well with the members representing the various emergency-
responses and related fields, and we have found that this mode of 
operation supports HSSTAC's capability to establish mission goals for 
the S&T Directorate.

Q1d.  How have you taken advantage of HSSTAC, the Homeland Security 
Institute, and other resources when planning long-term research 
strategies?

A1d. The S&T Directorate works through HSSTAC and the Homeland Security 
Institute (HSI) to gather outside expertise and inputs on current and 
planned activities. The HSSTAC will continue to play an important role 
in advising the S&T Directorate on long-term goals, institutional 
relationships, and research programs.

Q2a.  How many projects will be funded in FY 2008 under the 
TechSolutions program?

A2a. To date, the TechSolutions program has funded nine projects in FY 
2008. Funded projects include: (1) Safe Against Fires and Embers 
(SAFE)--identification of technologies that will mitigate damage caused 
by California wildfires; (2) Next Generation Breathing Apparatus--
reduce the weight and profile of the compressed air cylinder for a 
First Responders self-contained breathing apparatus by more than half 
and increase its flexibility; (3) 3-D location--improve 3-D location 
accuracy from three meters to one meter for a device that tracks 
incident responders in situations such as inside of threatened 
buildings, collapsed buildings, and subterranean facilities; (4) Inter-
operable Communications--develop a communications device capable of 
operating on all public safety radio bands (e.g., 700 and 800 MHz 
bands); (5) Vehicle Mounted Chem Bio Sensor--develop a vehicle mounted 
sensor capable of identifying toxic industrial chemicals and detecting 
biological agents when an emergency vehicle arrives on the scene; (6) 
Fire Ground Compass--develop an orientation device that enables 
firefighters, their exterior sector officers and the fire-ground 
commander to maintain their reference point to the fire building or 
area as they battle interior structural fires; (7) Standoff Patient 
Triage Device--develop a hand-held device capable of obtaining a 
victims pulse, respiration, temperature and body movement readings from 
a distance of five feet to 40 feet in 30 seconds or less; (8) Dazzler--
reduce the size of the current ``Dazzler'' incapacitation LED prototype 
to that of a MAG flashlight and perform operational field testing; and 
(9) Readiness Optimization (Brain Music)--improve performance of 
Federal Air Marshal Service (FAMS) agents and Transportation Security 
Administration (TSA) screeners by mapping music scores to 
electroencephalogram (EEG) brain wave patterns that, when played back, 
create a relaxed or alert state of mind.

Q2b.  How many projects do you anticipate funding in FY 2009?

A2b. The TechSolutions program plans to fund 8 to 12 projects in FY 
2009.

Q2c.  Of those already-funded projects, how many were requested by 
stakeholders outside of the Department of Homeland Security?

A2c. Seven of the nine projects funded by TechSolutions in FY 2008 were 
requested by stakeholders outside the Department of Homeland Security. 
The remaining two (3-D location and Dazzler) are ongoing S&T 
Directorate projects that TechSolutions invested in to improve 
functionality and accelerate transition and commercialization 
activities.

Q2d.  What efforts is DHS S&T making to promote TechSolutions as a 
resource for users outside of DHS?

A2d. The Department is promoting TechSolutions to audiences outside of 
DHS through press releases, attendance at major emergency responder 
conferences and events, publication and distribution of program related 
materials, including a newsletter found on the Firstresponder.gov web 
site and a TechSolutions web site that provides emergency responders 
with a means to submit their capability gaps. The web site is currently 
accessible from www.Firstreponder.gov or www.dhs.gov/techsolutions. In 
addition to these activities, TechSolutions is looking at ways to 
distribute informative program materials to emergency responder 
training facilities, put information about TechSolutions in frequently 
read emergency responder publications, work with emergency response 
departments to place a shortcut to the TechSolutions web site on their 
department computers' home page and provide a new and improved 
TechSolutions web-based system for inputting capability gaps and 
obtaining information about existing and recently awarded TechSolutions 
projects.

Q2e.  Also, the original plan for TechSolutions was to follow a quick 
timeline from the submission of suggestions to acceptance of a project. 
How successful has TechSolutions been at meeting their timeline goals?

A2e. TechSolutions has been relatively successful in achieving its 
goals for reviewing, vetting, selecting and awarding contracts to 
develop prototype technology for capability gaps submitted by First 
Responders. TechSolutions recently performed an audit on its current 
process that identified areas where improvements could be made. The 
improvements are being addressed in a new TechSolutions web-based 
system that is scheduled for release in the third quarter of this year.

Q3a.  You mentioned that you were not able to meet your staffing goals 
from your strategic plan in 2007 because of inadequate management and 
administration funding, but your FY 2009 request for management and 
administration is decreased by $6 million from the enacted FY 2008 
funding. How will you increase your staffing level to 100 percent or 
381 full-time employees while cutting funding for management and 
administration?

A3a. The S&T Directorate plans to transfer 124 full-time employees 
(FTE) from management and administration (M&A) to its Laboratory 
Facilities program. This move results in a decrease from the FY 2008 
enacted budget to the FY 2009 President's Budget request for S&T 
Directorate M&A.
    The S&T Directorate expects to fill all positions prior to the end 
of 2008. We have committed 96 percent of our positions and have only 11 
remaining positions under development. Currently, due to heavy 
workload, the DHS Office of the Chief Human Capital Office (CHCO) has 
advised us that many of our hiring actions would not appear until July. 
The S&T Directorate's goal is to provide all the needed support to hire 
new employees.
    The following table shows the S&T Directorate's FY 2008 hiring plan 
which fills those positions vacant at the beginning of the fiscal year. 
Maintaining this plan is dependent on whether we have adequate 
remaining M&A funds as the fiscal year progresses.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q3b.  Also, in your strategic plan, you state that you will ``not fill 
a career-reserved Senior Executive Service (SES) position using an 
[Intergovernmental Personnel Act] assignee.'' How many IPAs are 
currently assigned to DHS S&T, and what positions do they fill?

A3b. There are 14 IPA's currently on-board in the Science and 
Technology Directorate in the following positions:

        <bullet>  Director of Research

        <bullet>  Assistant to Deputy Director of Research

        <bullet>  Director, Plum Island Animal Disease Center

        <bullet>  Director, Test, Evaluation & Standards Division

        <bullet>  Science & Technology Liaison, International Programs 
        Division

        <bullet>  Program Manager, Operational Experimentation, 
        Operations Analysis Division

        <bullet>  Director, Small Business Innovative Research, 
        Homeland Security Advanced Research Projects Agency

        <bullet>  Agriculture Security Program Manager, Chemical/
        Biological Division

        <bullet>  Program Specialist for State & Local Interaction, 
        Infrastructure & Geophysical Division

        <bullet>  Transition Program Executive for Explosives and 
        Program Manager for Counter-Man-Portable Air Defense Systems, 
        Explosives Division

        <bullet>  Program Manager, Manhattan II Transition Programs, 
        Explosives Division

        <bullet>  Deputy for Knowledge Management & Tools/Threat 
        Assessment and Program Manager, Command, Control & Inter-
        operability Division

        <bullet>  Research Director/Program Manager, Command, Control & 
        Inter-operability Division

        <bullet>  Program Manager, Cyber Security, Command, Control & 
        Inter-operability Division

Q3c.  Are any of them in Senior Executive Service positions?

A3c. The approved Career-Reserved Senior Executive Service (SES) 
position of Director, Test & Evaluation and Standards Division is 
currently filled by an IPA; however, recruitment is currently under way 
to fill the position with a permanent federal employee.

Q4a.  What role do the University Centers of Excellence (COEs) play in 
the Directorate's activities?

A4a. The S&T Directorate's Centers of Excellence (COEs) form an 
integral part of S&T's basic research strategy, along with the National 
Labs. The COEs conduct multi-disciplinary research in priority DHS 
mission areas and are aligned to the S&T Directorate's divisions and 
their customers. COEs improve understanding of the causes, elements, 
and consequences of a range of threats from terrorists and natural 
disasters. The COEs also support countermeasures, mitigation and 
prevention approaches to identified threats (including biological, 
agricultural and explosives threats) based on both technologies and on 
human behavior. To accomplish this, the centers have assembled a 
powerful group of academic experts, researchers and educators in fields 
relevant to homeland security.

Q4b.  How is university research oriented and integrated to meet the 
research needs of DHS?

A4b. The S&T Directorate's Office of University Programs, which manages 
DHS Centers of Excellence (COEs), works closely with the S&T 
Directorate's six Divisions to align the basic research program of the 
COEs with the gaps identified by the Divisions' research program 
managers. The Divisions are largely responsible for negotiating the 
research agenda of the COEs. They are substantially involved with 
reviewing and evaluating the COEs' results and in communicating 
successful outcomes to the DHS and other federal, State, local, tribal 
and industry customers that can use these results to reduce threats to 
the Nation.

Q4c.  How will the proposed reduction in funding for the COE program 
affect the research currently being performed at those COEs?

A4c. Under the S&T Directorate alignment adopted in FY 2007, an 
increasing portion of the DHS Centers of Excellence (COEs) funding will 
come from the S&T Directorate's six divisions to conduct research 
relevant to DHS' mission. These funds will supplement the base level 
funding provided by the University Programs' COE budget, which is 
intended to adequately sustain administration, education, travel, 
outreach and coordination with DHS, National Labs and other COEs, and 
other program support functions.

Q4d.  What is the added benefit of funding additional COEs while at the 
same time significantly cutting overall funding?

A4d. The DHS Centers of Excellence (COEs) added in FY 2008 addressed 
critical gaps in DHS' research program and are now aligned with the S&T 
Directorate's six Divisions. Two Divisions had no aligned COEs--gaps 
that will be addressed by the new COEs for Explosives, Border Security 
and Immigration, and Maritime Security. Additionally, Hurricane Katrina 
demonstrated the need for serious university-based research on 
hurricanes, flooding and other natural disasters, which the new Natural 
Disasters COE will address. Additional research funding will come from 
the S&T Directorate's six Divisions, which should enable both the old 
and new COEs to thrive on a combination of base level funding from 
University Programs and supplemental research funds from the Divisions.

Q4e.  Should the COEs be allowed to accept funding from outside 
sources, and how would that affect their relevance to the DHS mission?

A4e. We fully anticipate funding for the DHS Centers of Excellence 
(COEs) to come from a variety of sources, and in fact, encourage it 
within limits. The DHS COE grants or cooperative agreements are 
intended to be open vehicles to facilitate research that meets three 
conditions: first, it must be actual research for a public purpose that 
addresses fundamental scientific questions, second, it must fall within 
the scope of the grant or cooperative agreement, and third, it must be 
subject to an approved merit review process to ensure it is good 
science. Research projects that meet these criteria will be sound, will 
remain relevant to the DHS mission and will conform to federal 
assistance agreement (grants and cooperative agreements) guidelines. If 
their objectives do not meet these criteria, outside sources, whether 
public or private, can always engage the COE investigators as 
individuals through other mechanisms.

Q5a.  In your testimony, you noted that DHS S&T has evaluated and 
tested commercial off-the-shelf technology for detecting homemade 
explosives. Why did these tests not take place until the most recent 
fiscal year, since liquid explosives were identified as a threat in 
August 2006?

A5a. The S&T Directorate has worked toward detecting homemade 
explosives (HME) for several years, including testing systems that 
could potentially be used at airports to detect HME threats. A rapid 
response team involving national laboratories, the Transportation 
Security Laboratory (TSL), and others, was established immediately 
after the London bombing incidents in August 2006. A consortium of 
national laboratories undertook physical and chemical characterization 
of the liquid homemade explosives threats of most urgent concern. Our 
characterization effort also took into account similar characterization 
work being undertaken under the auspices of the FBI laboratory.
    The characterization data informed the explosives detection 
activities to test HME against at least six different systems at a 
secure facility created at Tyndall Air Force Base. This work began in 
late-2006. Raw data and images were collected and analyzed to determine 
how to improve system performance against the novel threats being 
faced. Data was collected and analyzed using a large number of 
different types of bags which contained a variety of clutter and 
different orientations of explosives. Data is being shared across 
vendors to assist in improving the detection performance of Commercial 
Off-The-Shelf (COTS) explosives detection equipment.
    In recent months, additional testing has focused on addressing 
threats that use laptop computers. We are also extending earlier 
characterization work to categories of HME not yet examined.

Q5b.  How far away are we from having working homemade and liquid 
explosives detectors deployed in airports?

A5b. The Transportation Security Administration (TSA) handles the 
acquisition and deployment of detection systems in airports. The S&T 
Directorate and its Transportation Security Laboratory support 
acquisition and deployments through research, development, test and 
evaluation of detection equipment.
    For example, one explosives detection system recently evaluated by 
the S&T Directorate is planned for deployment by TSA to 70 airports. To 
support this deployment, the S&T Directorate undertook evaluations at 
Sandia National Laboratory (SNL) to test a new hand-held, portable 
liquid screening system based upon the chemical luminescence principle 
for detection. This system exploits the high vapor pressure of 
peroxides and detects such explosives threats in the vapor stage. The 
system was deployed to about six airports for testing in real airport 
settings. Based upon the success of the system, TSA made a decision to 
deploy the system in 70 airports. In addition, SNL is evaluating a 
portable trace explosive detector which might be useful as a complement 
to the hand-held, portable liquid screening system.

Q6a.  Please clarify the purpose and goals of the Human Factors 
division. As part of your list of 2008 accomplishments, you discuss the 
development of a database of ``unmet human needs after Hurricane 
Katrina'' as a major Human Factors achievement. Yet in the budget 
request and research and development plans that were submitted to the 
Committee, DHS S&T indicates that the Human Factors division will focus 
on human-technology interaction research, and behavioral science 
research, which are far different research fields than cataloging 
``unmet human needs.'' What is the primary mission of the Human Factors 
division?

A6a. The Human Factors Division (HFD) applies the social and behavioral 
sciences to improve detection, analysis, and understanding of the 
threats posed by individuals, groups, and radical movements; it 
supports the preparedness, response, and recovery of communities 
impacted by catastrophic events; and it advances homeland security by 
integrating human factors into homeland security technologies. This 
work includes numerous aspects of social and behavioral sciences, 
encompassing the Hurricane Katrina Database as well as R&D on human-
technology interaction.

Q6b.  How will the Human Factors division serve the overall homeland 
security mission, and how do you intend to integrate Human Factors' 
research into the research and technology development activities within 
the other divisions?

A6b. The Human Factors Division (HFD) funds research and development 
(R&D) designed to meet the following goals to improve homeland 
security: enhance the analytical capability of the Department to 
understand terrorist motivation, intent and behavior; improve screening 
by providing a science-based capability to identify deceptive and 
suspicious behavior; enhance the capability to control movement of 
individuals into and out of the United States and its critical assets 
through accurate, timely, and easy-to-use biometric identification and 
credentialing validation tools; enhance safety, effectiveness, and 
usability of technology by systematically incorporating user and public 
input; and mitigate impacts of catastrophic events by delivering 
capabilities that incorporate social, psychological and economic 
aspects of community preparedness, response and recovery.
    HFD supports R&D efforts that address high-priority capability gaps 
in biometrics and credentialing, suspicious behavior detection, hostile 
intent determination, violent intent modeling and simulation, and 
radicalization deterrence as identified by customers through the S&T 
Directorate's Capstone Integrated Product Team (IPT) for People 
Screening and the Technology Oversight Group (TOG), chaired by the 
Deputy Secretary of Homeland Security. Two other Capstone IPTs, Border 
Security and Explosives Prevention, also identified Suspicious Behavior 
Detection as critical to meeting their respective high-priority 
capability gaps.
    With respect to ``unmet human needs after Hurricane Katrina,'' HFD 
is funding a project entitled ``Enhancing Public Response and Community 
Resilience,'' which is aimed at an improved understanding of public 
needs during a catastrophic event in order to enable emergency managers 
to better plan for actual emergencies. This project includes a database 
of the 900,000-plus public requests received over the Texas 211 Call 
System during the evacuation from and response to Hurricanes Katrina 
and Rita. In FY 2008, the project will develop a report detailing 
temporal analysis of requests for shelter, food, disaster relief, 
evacuation information, and other requests received into the Texas 2-1-
1 System. The project will also develop a standardized template to 
improve efficiency of 211 Call Systems nation-wide. In FY 2009, the 
project will conduct a geo-spatial analysis of this information to 
assist Texas emergency responders in better planning of evacuation 
routes, and will identify vulnerable areas where requests were more 
frequent or of a more urgent nature. This project represents the first 
analysis of real-time public communications during a widespread natural 
disaster. The analytic process used in this study will be of value in 
emergency planning and public communications during disasters.
    The following recent accomplishments highlight how HFD serves the 
overall homeland security mission.

Screening Passengers by Observation Technique (SPOT) Refinement is 
supporting the Transportation Security Agency's (TSA) SPOT program. 
Interim analytical results suggest the potential for future optimizing 
of the internal weights associated with the behavioral indicators used 
by Behavior Detection Officers. Additional analyses are in progress and 
a final report is projected in FY 2010.

Project Hostile Intent (PHI) developed a baseline set of behavioral 
indicators yielding an accuracy rate of 87 percent for the detection of 
future hostile intentions in a laboratory environment. These results 
are currently being transitioned to DHS' operational customers through 
an S&T developed training course.

Mobile Biometrics conducted a Coast Guard pilot of maritime mobile 
biometrics in the waters of the Mona Pass between Puerto Rico and the 
Dominican Republic. S&T's support will inform future mobile biometric 
projects.

Credentialing developed and transitioned a laboratory test plan for the 
Transportation Worker Identification Credential (TWIC) card reader 
supporting the future deployment of TWIC readers in the ports.

Co-sponsored and guided the creation of the Multiple Biometrics Grand 
Challenge (MBGC), which encourages competition among vendors leading to 
accelerated algorithm development that includes DHS-specific 
operational requirements.

The Motivation and Intent Program funded the release of the first web 
interface for the Global Terrorism Database (GTD). The GTD will enable 
users to identify and analyze trends in terrorist activities, and 
enhance our strategic capabilities to protect the homeland from future 
attacks.

Violent Intent Modeling and Simulation (VIMS) delivered a framework 
demonstration to the Office of Intelligence and Analysis and Social 
Science Experts. VIMS allows analysts to strategically identify 
influences and the probability that groups will adopt violence to 
achieve their goals. The framework improves the analysts' ability to 
direct collection requirements and to engage in mitigation strategies 
to prevent terrorist attacks.

The Social and Behavioral Sciences Partnership Project in coordination 
with S&T's University Programs organized three meetings on 
radicalization research for the DHS Radicalization and Engagement 
Working Group. The meetings allowed policy-makers to define areas of 
interest related to radicalization, the differences between 
radicalization processes in the United States and Europe, and the role 
of community engagement in fostering integration.

HFD convened the Community Perceptions of Technology Panel to enable 
DHS to gain insights into community acceptance and perceptions of 
technology. This will allow the agency to better recognize and 
integrate viewpoints and issues into the development and deployment of 
technology.

Through work at the Transportation Security Laboratory, HFD delivered 
research reports on the effects of sleep deprivation, night-shift work, 
and time-on-task for X-ray screeners. This research identified various 
factors that lead to good or poor X-ray search performance, and will be 
used to inform operational and training improvements with TSA.

Q6c.  How do you intend to integrate Human Factors' research into the 
research and technology development activities within the other 
divisions?

A6c. The Human Factors Division (HFD) uses three main mechanisms for 
integrating its research with other divisions--its program managers, a 
management directive, and the Human Systems Integration Community of 
Practice.
    On a day-to-day basis, Human-Systems R&D Program Managers are 
responsible for incorporating human systems integration into the R&D 
process in order to maximize human performance, overall system 
effectiveness, safety, and acceptance, as well as to facilitate data-
driven design decisions by ensuring S&T Directorate decision-makers are 
aware of the human performance risks associated with those design 
alternatives and trade-offs being considered. Accordingly, HFD staff 
assess S&T Directorate programs for human performance risks and provide 
advice and counsel to DHS program managers, engineers, and scientists 
on human systems integration. Support also includes assistance in the 
development of the various programs' contractual documentation 
including Broad Area Announcements, Request for Proposals, Requirements 
Documents, Statements of Work, etc. This will ensure the appropriate 
language is included to help performers systematically address human 
performance issues throughout the life cycle and make them aware of the 
advantages of a comprehensive plan for human systems integration that 
optimizes total system performance, minimizes total ownership costs, 
and ensures that the system is built to accommodate the characteristics 
of the user population that will operate, maintain and support the 
system.
    Concurrently, HFD is developing a Department-wide Directive to 
establish policy on human systems integration to ensure that it is 
incorporated early and iteratively in all DHS R&D efforts. Successful 
implementation and incorporation of human systems integration into 
research, development and acquisition programs will enable DHS to 
generate more complete and operationally accurate technology 
requirements, limit integration difficulties throughout the life cycle, 
reduce cost and schedule risks, and most importantly, provide the 
customer with a solution that maximizes technology capability and human 
performance.
    HFD is also coordinating a DHS-wide Human Systems Integration 
Community of Practice. This Community of Practice connects all DHS 
human systems integration practitioners, facilitates collaboration and 
knowledge sharing across all DHS components, and serves as a forum for 
the rapid exchange of lessons learned, best practices, ideas, 
information, and data. As a result of this corporate knowledge sharing 
and collaboration, DHS can reduce cost, schedule and risk across all 
DHS programs/efforts by leveraging the experience of all DHS human 
systems integration practitioners as well as leveraging existing and 
ongoing analyses, designs, prototypes and tests completed on similar 
programs across all DHS components. The Community of Practice will 
serve as a vehicle to build a bridge between DHS Research and 
Acquisitions.

Q7a.  The DHS S&T budget request for cyber security will fund ``secure 
facilities and methods for testing cyber security technologies under 
real-life conditions.'' Who will develop these testbeds, and who will 
comprise the user community?

A7a. The S&T Directorate is developing the Cyber Defense Technology 
Experimental Research (DETER) cyber security testbed in partnership 
with the University of California (UC) Berkeley; University of Southern 
California's Information Sciences Institute; and SPARTA Inc. The 
National Science Foundation (NSF) contributed funding to the effort in 
2003-2005.
    DETER users are cyber security researchers in academia, government 
and industry. Interested users are welcome to request an account via 
the DETER web site at www.isi.deterlab.net.
    The following list is a current snapshot of projects and users 
using DETER.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q7b.  How will you coordinate with other agencies conducting both cyber 
security research and testbed development, such as the National 
Institute of Standards and Technology (NIST) and the National Science 
Foundation (NSF)?

A7b. As part of its cyber security research and development (R&D) 
efforts, S&T Directorate program managers regularly coordinate their 
activities, including development of the Cyber Defense Technology 
Experimental Research (DETER) cyber security testbed, with other DHS 
components and federal agencies. They include the National Institute of 
Standards and Technology (NIST) and the National Science Foundation 
(NSF). Coordination involves active participation in formal cross-
agency coordination committees, such as the Cyber Security and 
Information Assurance Interagency Working Group (CSIA IWG), as well as 
other, more informal, activities including conferences, symposiums and 
other events.
    In addition, NSF previously contributed funding to DETER and 
continues to be involved in its development and use. NSF encourages its 
cyber security researchers to use DETER in their efforts by including 
information about DETER in NSF's annual CyberTrust program 
solicitation.

Q7c.  How will the facilities and methods DHS S&T develops differ from 
those funded by other agencies?

A7c. Existing testing facilities cannot handle experiments on a large 
enough scale to represent today's operational networks or the portion 
of the Internet that might be involved in a security attack. Industry 
has only been able to test and validate new security technologies in 
small- to medium-scale private research laboratories that do not 
adequately simulate a real networking environment. The Cyber Defense 
Technology Experimental Research (DETER) cyber security testbed will 
address these gaps. Additionally, the DETER testbed is currently the 
only government-funded testbed that provides experiment tools (e.g., 
topology generators, malware) to help the researcher produce more 
realistic results. In FY 2007, the project combined several other 
government-funded testbeds to increase capabilities to create a 
realistic model of the Internet to test cyber security technologies. In 
FY 2008, the project will increase the testbed's capacity to allow 
larger-scale malicious-code experiments. The project will also increase 
the number of testbed users and large-scale data set applications. In 
FY 2009, the project plans to test five new technologies that may 
include: worm defense, routing security, distributed denial of service 
defense, malware detection and domain name system security.

Questions submitted by Representative Phil Gingrey

Q1a.  In 2010, the S&T Directorate will begin construction of the 
National Bio- and Agro-defense Facility (NBAF) at a cost of nearly $500 
million over five years. Do you expect the cost for construction to be 
appropriated in addition to your current activities or will some 
programs see cuts to fund this construction?

A1a. The S&T Directorate and the Department's five-year budget builds 
in funding for National Bio- and Agro-defense Facility (NBAF) 
construction, and there are no plans to cut other program funding to 
pay for construction. Anticipated start-up costs associated with the 
operation of NBAF have also been built into the five-year plan. The S&T 
Directorate anticipates requesting appropriations to support NBAF 
construction over the next several years.

Q2b.  Additionally, in your FY 2009 budget request you have asked for 
$16.2 million for equipment purchases for the newly completed National 
Biodefense Analysis and Countermeasures Center (NBACC). Are similar 
start-up costs expected for the NBAF? Do you have an estimate for the 
costs of equipment for NBAF?

A2b. The NBAF construction cost estimate is for fixed equipment that is 
part of the new facility. Since NBAF would serve as a replacement 
facility for Plum Island Animal Disease Center (PIADC), to the extent 
possible, movable equipment will be transferred from PIADC to NBAF as 
part of the overall transition to the new facility. In addition, new 
portable equipment is likely to be required for the expanded NBAF 
mission. The current estimate for new portable equipment during initial 
years of operation, beginning in FY 2014, is $38 million to be jointly 
funded by DHS and the U.S. Department of Agriculture.
                   Answers to Post-Hearing Questions
Responses by Vayl S. Oxford, Director, Domestic Nuclear Detection 
        Office, Department of Homeland Security

Questions submitted by Chairman David Wu

Q1.  You noted in your testimony that DNDO has deployed detection 
systems such that 100 percent of Southern border container traffic and 
98 percent of seaport traffic is being screened for nuclear and 
radiological threats. How many Ports of Entry and other border crossing 
points have screening equipment, and how many do not? What are the 
plans for deploying screening equipment to those entry points? What is 
the current error rate for the technologies in use?

A1. 

        <bullet>  How many Ports of Entry (POEs) and other border 
        crossing points have screening equipment and how many do not? 
        As of March 21, 2008, 190 of the total 551 POEs and border 
        crossing sites have been completely equipped with scanning 
        equipment and 21 of the 551 sites are in process. As of March 
        21, 2008, 361 POEs and border crossing points do not yet have 
        scanning equipment.

        <bullet>  What are the plans for deploying screening equipment 
        to those entry points? The Radiation Portal Monitor (RPM) 
        Program plans to equip all air cargo POEs in the current 
        program scope with radiation detection equipment by September 
        2011. We will complete deployments to the remaining southern 
        border land crossings by June 2009, northern border land 
        crossings by December 2009, seaports by September 2011, and 
        rail crossings by July 2013.

        <bullet>  What is the current error rate for the technologies 
        in use? The average nuisance alarm rate for currently deployed 
        systems is on the order of 1/100 (one percent) for cargo 
        scanning. These numbers are not error rates or false alarm 
        rates, since for the most part there is real radiation being 
        detected (and PVT systems don't perform isotope 
        identification). False alarm rates (when the system alarms on 
        statistical fluctuations) is about 1/10,000 or 0.01 percent for 
        cargo screening.

    Another metric that can be measured is the systems availability. 
This is the percent of time that the detection system was functioning 
in a manner that met the acceptable detection/interdiction criteria. 
The average, first year systems availability for the time period of 
October 2007 through March of 2008 was 99.58 percent.
    For the time period of October 2007 through March 2008, the average 
number of trouble calls was three per RPM system; this includes all 
calls, even such minor issues as a stuck lock or crashed computer, 
which would not be considered `true' RPM system errors.
    Where RPMs are deployed, CBP Officers utilize these systems to the 
fullest extent. The mandate given to CBP is to scan 100 percent of all 
mail, cargo, and conveyances entering the United States. CBP will 
continue to perform this mission with current technology and assist in 
the development of next-generation detection systems whenever possible. 
The goal of reducing the logistics burden on operators is one of the 
main reasons why DNDO is dedicating significant resources to pursuing 
next-generation systems that have improved detection and identification 
capabilities. Next-generation RPMs like ASP are designed to drive down 
the number of containers that need to go through resource intensive 
alarm resolution processes.

Q2.  You discussed interagency coordination in your testimony, and in 
the area of testing and evaluation, the National Institute of Standards 
and Technology (NIST) is a primary partner. In FY 2008, how much 
funding did NIST receive from DNDO for contract work? How much do you 
estimate DNDO will spend on NIST contract work in FY09? How will you 
ensure that NIST staff remain independent so as to provide unbiased 
results in future contract work?

A2. In FY 2008, DNDO will provide approximately $2.5 million in funding 
to NIST. In FY 2009, DNDO is planning to provide NIST approximately 
$2.6 million in funding for test and evaluation work.
    NIST has a long and carefully cultivated reputation for unbiased 
and objective science. NIST has specifically defined roles and 
functions in conjunction with its work for DNDO. While NIST provides 
expertise in support of standards and evaluation for preventive 
radiological and nuclear detection equipment, NIST employees are not 
involved with DNDO program management and contract execution. DNDO 
fully expects NIST to continue giving independent, unbiased, and 
scientifically sound analysis as in the past.

Q3.  You have previously discussed the serious problem with decreasing 
student interest in the field of nuclear science, and the Committee is 
pleased to see that you are continuing to work with the National 
Science Foundation (NSF) to provide funding for students interested in 
this field. How do you plan to make sure students who take advantage of 
this funding opportunity choose to go into homeland security-related 
positions, especially at DNDO? How many students will this program 
support in FY 2009, and which science and engineering fields do they 
represent?

A3. Students supported by Academic Research Initiative (ARI) funds are 
required to be U.S. citizens or permanent residents. While this does 
not guarantee that the students will work in homeland security related 
positions, it does increase the likelihood of the student base 
remaining in the U.S. It also increases the likelihood that the 
students will indirectly support homeland security applications through 
employment within industry, academia, and national labs.
    More notably, DNDO hosts an annual conference for ARI awardees 
where students are encouraged to participate and build working 
relationships with DNDO and government personnel working in homeland 
security applications. A major goal of the conference is to draw 
students to future career paths in homeland security related fields. 
The first ARI conference will be held on April 21 and 22, 2008 and will 
occur on an annual basis thereafter.
    It is estimated that by FY 2009 the ARI program will provide 
funding for over 100 students at colleges and universities throughout 
the country. ARI is a multi-disciplinary program and students working 
on ARI projects are pursuing degrees in various university departments 
including nuclear engineering, physics, chemistry, chemical 
engineering, mechanical engineering, electrical engineering, materials 
science, and operations research.

Q4.  You said in your testimony that ``DNDO is orchestrating a new test 
program that will enable vendors to submit performance data on 
radiation detectors collected independently at laboratories accredited 
by the National Voluntary Laboratory Accreditation Program.'' 
Currently, how many laboratories certified under NVLAP have the 
capability to collect data on radiation detectors? How many vendors do 
you anticipate will be able to take part in this new test program, and 
how do you intend to work with NIST to increase lab capacity? Who will 
be responsible for developing and validating test protocols?

A4. There are nine laboratories accredited under the Calibration 
Laboratories Accreditation Program. It is expected that some of these 
laboratories have the capability to collect data on radiation 
detectors. Pacific Northwest National Laboratory (PNNL) is the only 
laboratory at this time that has submitted an application for 
accreditation to support the new test program. Since this is a 
voluntary program, there is no way to predict how many vendors will 
take part in this new test program. However, if we look at past trends 
to inform our estimates, we can see that in FY 2005 more than 25 
companies provided technologies to be tested under the S&T radiation 
detector testing program. At the request of DNDO, NIST has provided 
training through workshops and conferences for laboratories interested 
in obtaining accreditation status for testing radiation detection 
instruments for this new program. NIST has developed and validated the 
test protocols for this new program in prior years.

Q5.  How is testing and evaluation integrated into your Advanced 
Technology Demonstration (ATD) program? You mention lab testing for 
some of your technology projects. Is field testing completed before 
these technologies are determined to be ready for end users? What about 
cost analyses?

A5. The ATD programs are structured to include a vendor-assisted 
testing phase that utilizes device characterization in a laboratory or 
field environment so that we are able to fully understand and document 
the state of the technology in question. This testing/characterization 
phase may also include data collection in a field environment that does 
not qualify as operational test and evaluation, but rather testing in a 
relevant environment. For example, an outdoor range provides the 
opportunity to investigate certain aspects of a technology that would 
not otherwise be quantified in a laboratory. More specific examples 
could involve measuring the effects of large structures (i.e., 
buildings with concrete in them) on small detectors, or standoff 
detection ranges in varying backgrounds, or detection at varying speeds 
in the case of mobile detectors.
    ATD testing and evaluation activities will not determine readiness 
for end users, but will make a recommendation on the state of 
technology and its suitability for moving into the development phase. 
That recommendation will be based upon analyses from the 
characterization studies. The analysis of the ATD collected data will 
produce the following reports which will form the basis for 
recommendation and decisions for follow on activities:

        a.  Full device characterization against requirements and goals

        b.  Device performance against test scenarios as a function of 
        individual and multiple units, as appropriate

        c.  Assessment of success of technology as a function of 
        component

        d.  Recommendations on maturity of technology (what technology 
        needs to inform the exploratory and subsequent ATD programs)

        e.  Assessment of technology potential--suitable to support 
        specification development for follow on activity

        f.  Any specific analysis required to support analysis of 
        alternatives and cost-benefit analysis for any subsequent 
        development

Questions submitted by Representative Phil Gingrey

Q1.  In your testimony you say DNDO has three programs for long-term 
research activities: the Academic Research Initiative, the Exploratory 
Research Program, and the Advanced Technology Demonstrations (ATD). Yet 
your description of the Exploratory Research and ATD programs suggest 
these projects are technologically ``feasible'' but require further 
development, testing, and evaluation. The S&T Directorate under Adm. 
Cohen has made it a goal to spend roughly 20 percent of the budget on 
long-term, basic research which he defines as having a timeframe of 
more than eight years. How much of DNDO's budget is similarly directed 
towards research with a timeframe of more than eight years? Who are the 
major performers of this research?

A1. 

        <bullet>  ``Yet your description of the Exploratory Research 
        and ATD programs suggest these projects are technologically 
        ``feasible'' but require further development, testing, and 
        evaluation.'' DNDO would like to clarify how the term 
        ``feasible'' relates to both Exploratory Research (ER) and the 
        ATD programs. The ER and ATD programs include projects at a 
        variety of Technology Readiness Levels, or TRLs, all the way 
        from TRL1 to TRL6 (using the same scale as DOD or NASA where 
        TRL 1 is feasibility and TRL 4 is Proof of Concept). 
        Exploratory Research is designed to cover TRLs from 1 through 
        4, and ATDs are designed to cover TRLs 5-6. DNDO currently has 
        programs in all these TRL levels. Hence, a good portion of the 
        ER programs are focused on showing feasibility, so that the 
        technology becomes ``feasible.'' That is, not all of the ER 
        programs are ``feasible'' yet, but are tasked with 
        demonstrating feasibility. This is normally a key milestone of 
        the first phase of ER projects.

        <bullet>  ``The S&T Directorate under Adm. Cohen has made it a 
        goal to spend roughly 20 percent of the budget on long-term, 
        basic research which he defines as having a timeframe of more 
        than eight years.'' DNDO's Transformational and Applied 
        Research (TAR) Directorate does not pre-define a fixed 
        percentage of the R&D budget that will be committed to ``long-
        term, basic'' research. Instead, TAR funds research that is 
        consistent with its own clearly stated mission statements and 
        goals; namely: ``Conduct, support, coordinate, & encourage an 
        aggressive, expedited transformational, high-impact Program of 
        R&D to dramatically improve national capabilities to detect and 
        report illicit trafficking of nuclear and radiological 
        materials.'' As such, programs are chosen primarily based on 
        being consistent with that mission.

        <bullet>  ``How much of DNDO's budget is similarly directed 
        towards research with a timeframe of more than eight years?'' 
        Most, if not all, of the Academic Research Initiative (ARI) 
        efforts have an expected timeframe of over eight years. This 
        would cover about 10 percent, growing to more than 15 percent, 
        of DNDO TAR R&D funding in the next few years.

           DNDO's mission is also focused with a high level of urgency, 
        and ER and ATD program efforts must define a path forward for 
        improvements in radiation detection performance. A standard 
        ``new'' project would take 3-4 years in ER and 2-3 years in an 
        ATD before transitioning to a development and acquisition 
        program. There are, of course, projects which move more quickly 
        or slowly, depending on the underlying technologies. The goal 
        is to move these projects through the R&D process in the 5-7-
        year timeline, and an estimated five percent of the budget 
        would support the longer-term projects that would have a 
        significant impact if successful.

           DNDO does not define a funding percentage goal as stated by 
        S&T, but about 15-20 percent of the TAR budget supports longer-
        term research.

        <bullet>  ``Who are the major performers of this research?'' 
        The long-term research within DNDO is performed mainly by 
        academia, national laboratories, government laboratories, and 
        to a smaller degree, industry.
                   Answers to Post-Hearing Questions
Responses by George Ryan, Director, Testing & Evaluation and Standards 
        Division, Science and Technology Directorate, Department of 
        Homeland Security

Questions submitted by Chairman David Wu

Q1a.  You mention in your testimony that you are developing a new 
testing and evaluation policy for the Department. What is the timeline 
for implementation of this policy?

A1a. The DHS Test and Evaluation (T&E) Policy is scheduled for formal 
review at the end of April with approval anticipated in the summer. 
Once the policy is signed, the T&E Office will begin approving the T&E 
documentation and overseeing testing for all DHS Acquisition programs 
in collaboration with the DHS Office of Management.

Q1b.  Will you retroactively evaluate tests carried out by DHS 
components for compliance with this T&E policy?

A1b. The DHS Test and Evaluation (T&E) Office will not retroactively 
evaluate tests carried out by the DHS components, but will review the 
categorization of the test reports currently provided in the 
Responder's Knowledge Base (RKB) to ensure that the tests categorized 
as operational were truly conducted operationally, and that they are 
reported appropriately in the RKB. The T&E Office will also review 
planned tests to ensure they are appropriately conducted and reported.

Q1c.  How will the requirements within the policy be enforced, 
especially when work is carried out through contracts with other 
federal agencies?

A1c. The DHS Test and Evaluation (T&E) Policy will be implemented 
through an acquisition framework that has multiple decision points for 
each acquisition program. The DHS T&E Office will provide inputs at 
each decision point to inform DHS components and the acquisition 
decision authority, DHS Under Secretary for Management Chief 
Procurement Officer, of a program's T&E status. Inputs from the T&E 
Office will be the primary method of enforcing the policy.

Q2a.  In your testimony, you stated that ``developmental testing and 
evaluation (DT&E) and operational testing and evaluation (OT&E) are 
conducted at levels commensurate with validating performance. . .'' Who 
currently carries out these tests, and how are the results reported?

A2a. Developmental testing is conducted at contractor facilities, 
National laboratories, and other Government Research, Development, Test 
and Evaluation (RDT&E) facilities. Operational testing of production 
representative systems or technologies is conducted by the system/
technology operators in actual environments.
    For both DHS acquisition programs and Science and Technology (S&T) 
Directorate projects, DHS program managers manage and oversee these 
test and evaluation (T&E) activities and the results are reported 
directly to them and/or the appropriate DHS program decision authority.

Q2b.  Is developmental and operational testing a requirement for 
transitioning technologies to customers?

A2b. For DHS research and development projects that will transition 
technologies to customers, the level and adequacy of testing is 
commensurate with the maturity of the system being transferred. A 
designation of Technology Readiness Level 6 (TRL 6) requires the 
technology to be tested in a simulated environment (lab) whereas a TRL 
8 designation requires the technology to be successfully demonstrated 
in the actual operational environment.

Q2c.  What role do your customers play in setting testing requirements 
currently?

A2c. Currently, customers provide input to test requirements through 
the S&T Directorate's customer-led, Capstone Integrated Product Team 
(IPT) process.

Q2d.  Will any test results be retroactively classified if the results 
are unfavorable?

A2d. No. The Test and Evaluation (T&E) Office will determine the 
classification of test results prior to actual testing, and they will 
not be reclassified as a result of testing outcomes.

Q2e.  You also said in your testimony, ``when possible, DHS ensures 
independent operational test teams are involved early in project 
development.'' Can you give some examples of when you used these 
independent test teams, and how results from their tests were used to 
improve the technologies?

A2e. The DHS Test and Evaluation (T&E) Office facilitates the 
integration and use of independent test teams into T&E plans and 
activities whenever possible. For example, the DHS T&E Office has 
worked closely with the Transportation Security Administration (TSA), 
the U.S. Coast Guard (USCG) and DHS Office of the Chief Information 
Officer (CIO) on the use of independent test teams in T&E plans and 
activities, as follows:

        <bullet>  The Transportation Security Administration (TSA) Test 
        and Evaluation Master Plan (TEMP) for the Transportation 
        Workers Identification Card (TWIC) calls for operational T&E 
        results to be reported by an independent party, the Space and 
        Naval Warfare Systems Center (SPAWAR).

        <bullet>  The U.S. Coast Guard (USCG) uses the Navy Commander 
        Operational Test and Evaluation Force (COTF) to support the 
        Deepwater program. COTF performed an early operational 
        assessment on the National Security Cutter in September 2007 
        and plans to conduct an observation of operational capability 
        on the HH-60J avionics upgrade.

        <bullet>  The DHS Test and Evaluation (T&E) Office and the DHS 
        Chief Information Officer (CIO) have brought in the DOD Joint 
        Inter-operability Test Command as an independent party to 
        oversee the independent verification and validation testing on 
        the on the Homeland Security Presidential Directive 12 (HSPD-
        12) Card.

    The results of these independent tests have or will be reported to 
program managers and/or decision authorities who will use the results 
to identify operational shortcomings and correct them as early as 
possible in development.

Q3a.  You mentioned in your testimony that test results will be placed 
on the Responders Knowledge Base, which is run by FEMA. Yet the DHS S&T 
budget request includes funding for the Tech Clearinghouse web site, 
which, according to the request, will include a tool to disseminate 
test results and technology information to State, local, and tribal 
agencies. Who has access to the Responders Knowledge Base, and is this 
database standardized so as to make finding and understanding test 
results straightforward and easy to use?

A3a. The Responder Knowledge Base (RKB) is a publicly accessible web 
site that contains some material, such as test reports, that have a 
limited distribution. In order to access limited distribution 
documents, users must register with the RKB as a first responder, 
state/local/tribal official or federal employee. Responders and state/
local/tribal officials are vetted by contacting their home agency and 
other responders/officials who are already vetted with the RKB. Federal 
employees are vetted primarily through their e-mail addresses such as 
.mil, .gov, etc. When requesting the documents, the registered user 
must agree to the distribution statement on the document.
    The RKB has a consistent, organized, easy to use layout, and the 
DHS Test and Evaluation (T&E) Office plans to standardize definitions 
for classifying operational T&E data.

Q3b.  And if test results are being loaded directly into the Responders 
Knowledge Base, what is the function of the Tech Clearinghouse site and 
how much money do you plan to spend on it in FY 2009?

A3b. The Tech Clearinghouse focus is on the dissemination of homeland 
security science and technology information to federal, State, local 
and tribal agencies. The system and associated efforts encourage and 
support innovative solutions to enhance homeland security and also 
fulfill Section 313 of the Homeland Security Act of 2002.
    The S&T Directorate's FY 2009 budget request includes $4 million 
for the web development, operation, and maintenance associated with the 
Tech Clearinghouse Portal, which includes a Communities of Practices 
collaborative environment. The S&T Directorate is also investing in the 
TechSolutions and www.FirstResponder.gov, an Internet portal that links 
relevant DHS content including the Tech Clearinghouse and the Responder 
Knowledge Base (RKB). Launched in January 2008, www.FirstResponder.gov 
provides one-stop-shop access to the already registered 60,000-plus RKB 
users. In addition to links to Technology Clearinghouse, the portal 
provides links to the Homeland Security Information Network (HSIN), the 
National Integration Center Incident Management System (NIMS), SAFETY 
Act, and SAFECOM, as well as web-based resources from other government 
agencies and the private-sector.

Q3c.  Also, what is your plan for disseminating test results with 
relevance outside the first responder community?

A3c. The DHS Test and Evaluation (T&E) Office, in collaboration with 
FEMA, is expanding the Responder Knowledge Base (RKB) to include items 
that have relevance beyond the first responder community. Since the RKB 
is a well-designed and functioning site, the plan is to use its 
database capabilities to disseminate additional DHS test results to a 
broader audience. For example, work is underway to include test results 
for Transportation Security Administration certified explosive 
detection devices in the RKB.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
